<html>
<title> - REVIEW OF THE USE OF DISPERSANTS IN RESPONSE TO THE DEEPWATER HORIZON OIL SPILL</title>
<body><pre>[Senate Hearing 111-1011]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1011
 
 REVIEW OF THE USE OF DISPERSANTS IN RESPONSE TO THE DEEPWATER HORIZON 
                               OIL SPILL 

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     JULY 15, 2010--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

63-179 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD,\1\ West Virginia     THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
DANIEL K. INOUYE, Hawaii             RICHARD C. SHELBY, Alabama
PATRICK J. LEAHY, Vermont            JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         LAMAR ALEXANDER, Tennessee
JACK REED, Rhode Island              GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      LISA MURKOWSKI, Alaska
BEN NELSON, Nebraska                 THAD COCHRAN, Mississippi (ex 
MARK PRYOR, Arkansas                     officio)

                           Professional Staff

                            Gabrielle Batkin
                            Jessica M. Berry
                             Jeremy Weirich
                            Jean Toal Eisen
                         Art Cameron (Minority)
                        Allen Cutler (Minority)
                       Goodloe Sutton (Minority)

                         Administrative Support

                              Michael Bain
                         Katie Batte (Minority)

----------
\1\ Died, June 28, 2010.





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Barbara A. Mikulski.................     1
Statement of Hon. Lisa P. Jackson, Administrator, Environmental 
  Protection Agency..............................................     4
    Prepared Statement...........................................     6
EPA's Oil Spill Program..........................................     6
EPA's Role in Spill Response.....................................     7
Use of Dispersants...............................................     8
Research and Development.........................................     9
Statement of Hon. Larry Robinson, Assistant Secretary of Commerce 
  for Oceans and Atmosphere, National Oceanic and Atmospheric 
  Administration, Department of Commerce.........................    10
    Prepared Statement...........................................    11
NOAA's Roles During Oil Spills...................................    12
NOAA'S Role in the Deepwater Horizon Response....................    13
The Use of Dispersants...........................................    13
Research on the Effectiveness and Effects of Dispersants and 
  Dispersed Oil..................................................    15
Activities to Assess Presence of Subsurface Oil From Deepwater 
  Horizon 
  Spill..........................................................    17
Prepared Statement of Robert Shipp, Chairman, Department of 
  Marine Sciences, University of South Alabama, Chairman, Gulf of 
  Mexico Fishery Management Council..............................    32
Statement of Kenneth A. Cook, President, Environmental Working 
  Group..........................................................    33
    Prepared Statement...........................................    35
What We Know About Dispersants Through EPA.......................    36
What We Know About Dispersants and the Spill Through NOAA........    37
Recommendatons...................................................    38
Statement of Anne Rolfes, Founding Director, Louisiana Bucket 
  Brigade........................................................    43
    Prepared Statement...........................................    45
Application of Dispersants.......................................    46
Health Impacts...................................................    46
BP's Monitoring..................................................    47
Need for Long-Term Health and Environmental Monitoring...........    48
Seafood Safety...................................................    48
Environmental Protection Agency..................................    48
BP Control.......................................................    49


 REVIEW OF THE USE OF DISPERSANTS IN RESPONSE TO THE DEEPWATER HORIZON 
                               OIL SPILL

                              ----------                              


                        THURSDAY, JULY 15, 2010

                           U.S. Senate,    
         Subcommittee on Commerce, Justice,
                     Science, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Lautenberg, and Murkowski.


            opening statement of senator barbara a. mikulski


    Senator Mikulski. Good morning, everybody.
    We've been advised by the floor that there will be a vote 
at or around 11 o'clock on the financial reform legislation.
    So while we're awaiting the arrival of Lisa Jackson, I'm 
going to move ahead with the hearing.
    We are so pleased that Dr. Larry Robinson is here from the 
National Oceanic and Atmospheric Administration [NOAA], and 
when he concludes, hopefully Ms. Jackson's here. If not, we'll 
move on to those from the community. And we'll certainly go 
forward to hearing our very able administrator from EPA, who I 
traveled to the gulf with.
    This hearing is now going to come to order. It is an 
official hearing of the Commerce, Justice, and Science 
Appropriations Subcommittee.
    And the purpose of the hearing is to determine what it is 
that we know about dispersants. What is the impact that it's 
having on people, marine life and on communities? What do we 
know? Can we count on what we think we know? And what do we 
need to know more?
    And as we get ready to put a bill for fiscal year 2011 
together, we want to look at, are there things that we need to 
add in the Appropriations Committee to either the NOAA budget, 
or encourage it at EPA and others to see what we do.
    Our No. 1 concern is the safety of the American people, 
safety of the air they breathe, and the food they eat. And when 
a catastrophe affects them, what are the consequences of that 
catastrophe?
    We really salute our President for being so compassionately 
involved in this issue. Having talked with him and then having 
traveled to the gulf with key team members--like you, Ms. 
Jackson--we know that the administration is deeply committed 
to, really, not only stopping the leak, but making sure that we 
contain the negative consequences of the leak.
    So today is day 86 of this national catastrophe. The world 
is waiting to see if the new cap will stop gushing. And I'm 
holding this hearing to examine the use of oil dispersants in 
response to the spill.
    As of July 13, which was yesterday, BP had used 1.8-million 
gallons of oil dispersants in the gulf, over 1 million of these 
on the surface of the water, 735,000 below the surface. And we 
need to know, what does that mean? Has that been good? Has that 
been bad or is there information out there that we really need 
to pursue?
    What we do know is that dispersants are chemicals that 
break up oil slicks into small particles, a tool that has often 
been advised to prevent oil from washing up on the shore to 
negatively impact habitat, wildlife and the beaches and public 
health.
    We know that dispersants break up in small droplets, that 
they sink in the water and that they become invisible. Now, 
when they become invisible, they're eaten up by tiny microbes 
and then that becomes part of the food chain. Gee, what does 
that mean? And what does being invisible mean? Because it's 
invisible, it can't be overlooked and under evaluated.
    I'm concerned because I feel, and I believe, and my reading 
verifies, that we don't know enough about the impact of 
dispersants and dispersed oil on people, marine life and water 
quality.
    I'm very concerned, and my question is, should we ban them? 
Should we take a time out from using them? What are the short- 
and long-term consequences of using them?
    I have been a Member of Congress for some time. There are 
those that say that's a liability. I want to turn that 
experience into an asset. So I believe--whatever I'm told, I 
want to trust, but verify.
    I believe that often we're told, don't worry, honey, we'll 
take care of you and it won't hurt. We only then find out that 
a very good product--what we thought was a good product turns 
out to have vile consequences.
    I don't want dispersants to be the Agent Orange of this oil 
spill, and I want to be assured, on behalf of the American 
people, that this is okay to use, and okay to use in the 
amounts that we're talking about.
    So there are questions about how does it move, where will 
it go, do we clean it up, is it toxic, does it create dead 
zones, questions that have been raised in the public domain and 
by people sitting at the table, both really well known and well 
respected scientists and those who have been advocates.
    As I said, I'm very concerned about it. Do they work? Do 
they linger? How toxic are they? And what happens to the food 
chain--does food change?
    The use of dispersants in the Deepwater Horizon spill in 
this magnitude is unprecedented. In Exxon Valdez, we used 
250,000 barrels. By comparison, Deepwater, the biggest oil 
spill in history, now uses 35,000 to 60,000 barrels per day. 
Wow. So we used more in 10 days than during the whole Valdez 
experience.
    Responders tried to use these dispersants at the Valdez 
spill, but only used 4,000. BP has used 1.8 million gallons.
    Subsea use of dispersants seems to be an uncharted 
territory. Dispersants have never been used under water like 
this.
    So I'm here to listen to those people that have been 
confirmed by the Senate to tell us the truth. And we encourage 
you today, speak truth to power. Speak truth about what you 
know. Speak truth about what you don't know. Don't pull any 
punches, and knowing both of you as I do, I know that you 
won't.
    I would really ask, on behalf of the people and those 
watching C-SPAN, don't use acronyms. I don't want to use that, 
we told BP that we have an RSC that we'll do with the CT and 
then we'll go back and review the RNC, and don't forget the 
DNC--but let's keep politics out of it. But we're not going to 
talk like that.
    Let's do like our Vice President says, straight talk and 
plain talk. And that's what the people want. That's what I 
want. Let's really put our questions, our concerns and the good 
news we know out in the sunshine.
    We have to learn from lessons past, and one of which is 
that we need to know early on, so we don't have to go find out 
the negative consequences later.
    When I went to the gulf--Senator Cardin and I went to the 
gulf, we were told that our beaches were safe and our seafood 
was safe and that our people were safe. Well, let's hear where 
we are now.
    I'm now going to turn our testimony over to our witnesses.
    I want to, before I turn to both Ms. Jackson and Mr. 
Robinson, to say why some people aren't here. My very good 
friend and colleague, a man of the gulf, Senator Shelby, is on 
the floor because we're moving financial regulation.
    This hearing was scheduled, as you know, well in advance, 
to comply with the committee rules. So Senator Shelby is here 
represented by his staff. He will submit questions in writing. 
You know he is a man that is duty driven in terms of protecting 
the people of the gulf. Alabama is one of the States affected. 
So he will try to join us.
    So the second issue is that we invited a scientist from 
Alabama to testify, Dr. Shipp--again, a seasoned scientist from 
the gulf, from the University of Alabama.
    Regrettably, Dr. Shipp fell and broke his ankle and is 
unable to travel. We wanted you to know that we also had 
invited him, and he will be submitting testimony for this 
record. So we're going to do long distance. We didn't want to 
get into video conferencing and so on, with the votes.
    The other is that we invited the Nalco Company. Could I 
have the paper, so I can explicitly read who they are?
    The Nalco Company represents the chemical industries that 
manufacture dispersants. They declined to participate in the 
hearing.
    I want the record to show that, in addition to Government 
officials, those who work in the advocacy community, we also 
wanted those who represent the chemical industry--because I do 
believe in better living through chemistry--also declined to 
participate.
    I want the record to show that Nalco did decline, that its 
board of directors is made up of industry executives from BP, 
Exxon, Monsanto and Lockheed. And I'm sorry that they didn't 
come, because I think they do a lot of good things, and there 
are questions that we have.
    But it's America and we're not going to subpoena them for 
this hearing. We might subpoena them at another hearing, and I 
reserve that right.
    Now, though, I really would like to turn to what we do know 
and who is at the table and who the American people count on.
    I want to ask--is it a doctor's, or a master's? I remember 
on our trip to the gulf, you said you were a chemistry person 
and a woman of the bayou. Lisa Jackson.
STATEMENT OF HON. LISA P. JACKSON, ADMINISTRATOR, 
            ENVIRONMENTAL PROTECTION AGENCY
    Ms. Jackson. Thank you and good morning, chairwoman. Thank 
you for having me, and I do look forward and hope to see 
Ranking Member Shelby and other members of the subcommittee if 
they can join us.
    Thank you for inviting me to testify about dispersants and 
EPA's role--EPA will be the only acronym I will use, for 
Environmental Protection Agency--in responding to the BP 
Deepwater Horizon rig explosion.
    I do want to start by expressing my condolences to the 
families of those who have lost their lives in the explosion 3 
months ago. We owe them our very best.
    As we all know, efforts by BP to stop the oil release 
continue today. While the environmental disaster that the Gulf 
of Mexico is facing right now certainly has no easy answers, 
EPA is committed to doing its job--protecting communities, the 
natural environment and human health from the spill itself--as 
well as addressing any concerns resulting from the response to 
the spill.
    Additionally, at the President's direction, I have 
personally traveled to the gulf--the region I grew up in and 
still consider my hometown, New Orleans--six times over the 
past few months. I'll be leaving for my seventh trip right 
after this hearing.
    The U.S. Coast Guard is the National Incident Commander and 
has the primary responsibility of managing the response effort. 
But EPA has a large role in providing technical and scientific 
assistance to the Coast Guard as the response continues.
    Since the crisis began, EPA has had more than 200 staff 
working on the emergency response, including scientists and 
engineers, contractors and other experts throughout the 
country.
    In addition to our role in assisting the Coast Guard in the 
management of waste generated from the spill, we are performing 
rigorous testing and monitoring of air, water and sediment, and 
this monitoring is essential to ensure that communities are 
protected as we respond to the BP spill.
    All of this information is being made public at 
www.epa.gov/bpspill as quickly as we can compile it.
    EPA also has a role with the use of dispersants, which are 
chemicals that are applied to the oil to break it down into 
small droplets. Ideally, the dispersed oil mixes into the water 
column and is rapidly diluted and degraded naturally by 
bacteria and other microscopic organisms. The latest scientific 
accounts in popular media indicate that these microbes are 
thriving in the gulf.
    EPA is responsible for managing the product schedule which 
lists the dispersants available for use in spill response and 
cleanup efforts, but decisions for their use are made by the 
Coast Guard as the Federal On-Scene Coordinator for this 
response.
    In the use of dispersants, we are faced with environmental 
tradeoffs. The long-term effects on aquatic life are largely 
unknown and we must ensure that the dispersants that are used 
are as non-toxic as possible.
    To date, BP has used, as you said, almost 1.8 million 
gallons of dispersant, a volume never before used in the United 
States.
    The U.S. Coast Guard was first asked by BP, shortly after 
the explosion, to authorize use of dispersants in a novel 
manner, under water, at the source of the leak. The goal of 
this technique was to degrade the oil before it reached the 
water's surface and came closer to shorelines, our estuaries, 
our nurseries.
    EPA demanded scientific data from the company to prove that 
such use of dispersants was indeed effective and that it could 
be monitored.
    After that data were analyzed and shown that effectiveness 
was improved and that it could be monitored on a daily basis--
and it was done by various labs at Louisiana State University--
EPA required implementation of a rigorous monitoring system to 
ensure that underwater application would continue to be 
effective and would also track measurable environmental 
impacts.
    After this monitoring system was in place, the Coast Guard 
conditionally granted authorization for this use of dispersant 
after it was made clear to the company and to the public that 
it reserved the right to halt the usage of subsea dispersant if 
we determined at any time that the impact to the environment 
outweighed the benefit of dispersing the oil.
    There is good news. The good news is that we have not seen 
significant environmental impacts from the use of dispersants 
so far. Dissolved oxygen levels remain at an acceptable level 
which is a good indicator for overall aquatic health in the 
waters near the rig site where dispersants are applied subsea, 
and results of water monitoring do not show dispersant in 
waters on or near the shoreline.
    In fact, yesterday, the State of Louisiana reopened some 
State waters to fishing after tests showed no presence of oil 
or dispersants.
    The Coast Guard and EPA issued a directive to BP on May 26 
instructing BP to apply no more than 15,000 gallons of 
dispersants per day and to halt use of surface application 
unless conditions on the ground limited the use of other 
methods of dealing with the oil--skimming and burning.
    Since that directive was issued on May 26, we have seen the 
total daily volume of dispersants used fall by 72 percent from 
their peak levels. We also ordered BP to work with Federal 
Government scientists to identify less toxic alternatives.
    Two weeks ago, EPA released the first round of scientific 
testing of these alternative dispersants. The good news there 
is that none of the currently authorized dispersants appear to 
show significant endocrine-disrupting activity, and it appears 
that all the products have roughly similar impacts on the 
aquatic life tested. We await additional rounds of scientific 
testing which we expect in the near future.
    Madam Chairwoman, we are in a situation with no perfect 
solution. As we emerge from this response, I believe we need to 
revisit the contingency plans and the Product Schedule that 
preauthorizes dispersant use.
    Additionally, we need to make sure we have sufficient 
funding for the study of the long-term impacts of dispersant on 
human health and particularly on the environment.
    As a New Orleans native, I know firsthand the importance of 
the natural environment to the economy and culture of the gulf 
coast. We have a great deal of rebuilding to do, and I urge 
that we do everything within our power to ensure a strong 
recovery and a promising future for the gulf.
    As we know, efforts by BP to test the new cap continue 
today. We will all know more in the coming hours and days. I 
remain hopeful that the flow of oil will slow or it will be 
stopped completely. And with any significant reduction in the 
flow of oil, there should be a significant reduction in the 
amount of dispersant used--further reduction in dispersant 
used.


                           prepared statement


    The people of the gulf prefer collection of oil to 
dispersing of oil, and we should demand that BP live up to 
their views.
    Thank you for the opportunity to testify at this time. I 
welcome your questions.
    Senator Mikulski. Thank you, Ms. Jackson.
    [The statement follows:]
               Prepared Statement of Hon. Lisa P. Jackson
    Chairman Mikulski, Ranking Member Shelby and members of the 
subcommittee, thank you for the opportunity to testify on the role of 
the U.S. Environmental Protection Agency (EPA) in the Deepwater Horizon 
BP oil spill response. My testimony today will provide you with an 
overview of EPA's role and activities in the affected gulf coast region 
following the April 20, 2010 Deepwater Horizon mobile offshore drilling 
unit explosion and resulting oil spill as well as a summary of our 
primary environmental activities, including dispersant use, waste 
management, and beach cleanup. I also want to express my condolences to 
the families of those who lost their lives and those injured in the 
explosion and sinking of the Deepwater Horizon.
                        epa's oil spill program
    EPA's Oil Spill Program focuses on activities to prevent, prepare 
for and respond to oil spills from a wide variety of facilities that 
handle, store, or use various types of oil. EPA regulates approximately 
620,000 of these facilities, including oil production, bulk oil 
storage, and oil refinery facilities that store or use oil in above-
ground and certain below-ground storage tanks. Additionally, EPA is the 
principal Federal response agency for oil spills in the inland zone, 
including inland waters. Such inland zone oil spills may come from, oil 
pipeline ruptures, tank spills, and other sources.
    The National Contingency Plan (NCP) is the Federal Government's 
blueprint for responding to both oil spills and hazardous substance 
releases. Additionally, it provides the Federal Government with a 
framework for notification, communication, and responsibility for oil 
spill response. Under the NCP, the EPA or the USCG provide Federal On-
Scene Coordinators (FOSCs) for the inland and coastal zones, 
respectively, to direct or oversee responses to oil spills. The exact 
lines between the inland and coastal zones are determined by Regional 
Response Teams (RRTs) and established by Memoranda of Agreement (MOAs) 
between regional EPA and USCG offices.
    Other Federal agencies with related authorities and expertise may 
be called upon to support the FOSC. The NCP established the National 
Response Team (NRT), comprised of 15 Federal agencies, to assist 
responders by formulating policies, providing information, technical 
advice, and access to resources and equipment for preparedness and 
response to oil spills and hazardous substance releases. EPA serves as 
chair of the NRT and the USCG serves as vice-chair.
    In addition to the NRT, there are 13 RRTs, 1 for each of EPA's 10 
regional offices and 1 each for Alaska, the Caribbean, and the Pacific 
Basin. RRTs are co-chaired by each EPA Region and its USCG counterpart. 
The RRTs are also comprised of representatives from other Federal 
agencies and State representation, and frequently assist the Federal 
OSCs who lead spill response efforts. The RRTs help OSCs in their spill 
response decisionmaking, and can help identify and mobilize specialized 
resources. For example, through the RRT, the FOSC can request and 
receive assistance on natural resource issues from the Department of 
the Interior (DOI), the Department of Commerce, and the States, or 
borrow specialized equipment from the Department of Defense or other 
agencies. Involvement of the RRT in these response decisions and 
activities helps ensure efficient agency coordination while providing 
the FOSC with the assistance necessary to conduct successful spill 
response actions. Under the NCP, authority to use dispersants rests 
with the FOSC but requires concurrence of certain RRT members. For 
example, RRT representatives from EPA, DOI, the Department of 
Commerce's National Oceanic and Atmospheric Administration (NOAA), and 
the States with jurisdiction over the navigable waters under 
consideration may pre-authorize application of approved dispersant 
products so that the FOSC can authorize dispersant use without 
obtaining further concurrences.
                      epa's role in spill response
    USCG has been leading the response following the April 20, 2010 
Deepwater Horizon mobile offshore drilling unit explosion and resulting 
oil spill. EPA is one of many agencies providing support to the USCG-
led Federal response. EPA's monitoring and sampling activities provide 
the USCG, States, and local governments with information about the 
potential impacts of the oil spill and response on the health of 
residents as well as aquatic life along the shoreline. EPA is 
collecting samples along the shoreline and beyond for chemicals related 
to oil and dispersants in the air, water and sediment, supporting and 
advising USCG efforts to clean the oil and waste from the shoreline, 
and closely monitoring the effects of dispersants in the subsurface 
environment.
    The USCG, in consultation with EPA and the States, approved waste 
management plans outlining how recovered oil and waste generated as a 
result of the BP oil spill will be managed. The plans take into 
consideration review of applicable Federal, State, and local 
regulations, planning for waste characterization, and, BP's proposed 
locations for waste management activities in order to consider the 
suitability of specific sites and the impacts on the surrounding 
communities. Given the unprecedented aspects of the BP oil spill, these 
plans may be updated as necessary to minimize any unforeseen 
environmental and human health impacts. EPA will post any updates to 
the plan on its Web site.
    In addition, USCG, in consultation with EPA, issued directives to 
BP on June 29, 2010, on how the company should manage recovered oil, 
contaminated materials and liquid and solid wastes recovered in cleanup 
operations from the BP oil spill in the affected gulf States. The 
directives create enforceable requirements, implementation procedures 
and oversight plans related to BP's handling of waste materials by 
providing guidelines for community engagement activities and sets 
transparency requirements on information regarding the proper 
management of liquid and solid wastes, requiring BP to give EPA and 
State agencies access to facilities or any location where waste is 
temporarily or permanently stored. Access includes allowing the 
agencies to perform any activities necessary, such as assessments, 
sampling or inspections, and requiring BP to comply with all applicable 
Federal, State and local laws and regulations and to ensure that all 
facilities where waste is located or placed have obtained all permits 
and approvals necessary under such laws and regulations. The directives 
complement the State's activities by providing further oversight and 
imposing more specific requirements. USCG and EPA, in consultation with 
the States, will hold BP accountable for the implementation of the 
approved waste management plans and ensure that the directives are 
followed in the Gulf Coast States.
    EPA is also responsible for maintaining the NCP Product Schedule, 
which lists chemical and biological products available for Federal OSCs 
to use in spill response and cleanup efforts. Due to the unique nature 
of each spill, and the potential range of impacts to natural resources, 
FOSCs help determine which products, if any, should be used in a 
particular spill response. If the application of a product is pre-
authorized by the RRT, then the FOSC may decide to use the product in a 
particular response. If the product application does not have pre-
authorization from the RRT, then the FOSC must obtain concurrence from 
the EPA representative and the representatives of States with 
jurisdiction over the navigable waters under threat. In addition, the 
FOSC must consult with representatives of DOI and NOAA, as natural 
resource trustee agencies before authorizing incident-specific use of a 
dispersant.
                           use of dispersants
    Following the April 20, 2010 Deepwater Horizon mobile offshore 
drilling unit explosion and resulting oil spill, the USCG, in 
consultation with EPA, DOI, NOAA, and the State of Louisiana, granted 
BP authorization to use approved dispersant on oil on the surface of 
the water in an effort to mitigate the shoreline impacts of the oil on 
fisheries, nurseries, wetlands and other sensitive environments. 
Dispersants contain a mixture of chemicals, that, when applied directly 
to the spilled oil, can break down the oil into smaller drops that can 
sink below the water's surface. Dispersed oil forms a ``plume'' or 
``cloud'' of oil droplets below the water surface, and mixes vertically 
and horizontally into the water column, and is ideally rapidly diluted. 
Bacteria and other microscopic organisms are then able to act more 
quickly than they otherwise would to degrade the oil within the 
droplets.
    The application of dispersant is part of a broader environmental 
triage approach to minimize the known threat to the environment to the 
greatest extent possible. The spill management strategies, practices, 
and technologies currently being implemented include mechanical removal 
techniques (use of sorbents, booming and skimming operations), in-situ 
burning, and lastly dispersants. There are environmental tradeoffs and 
uncertainties associated with the widespread use of large quantities of 
dispersants. We know dispersants are generally less toxic than the oils 
they break down. We know that surface use of dispersants decreases the 
environmental risks to shorelines and organisms at the surface and when 
used this way, dispersants break down over several days to weeks. In 
addition, the use of dispersants at the source of the leak represents a 
novel approach to addressing the significant environmental threat posed 
by the spill. Results to date indicate that subsea use of the 
dispersant is effective at reducing the amount of oil reaching the 
surface, and can do so by using less dispersant than is needed to 
disperse oil after it reaches the surface, and has resulted in 
significant reductions in the overall quantity of dispersants being 
used to minimize impacts in the deep sea.
    On May 10, 2010, EPA and USCG issued a Directive requiring BP to 
implement a monitoring and assessment plan for both subsurface and 
surface applications of dispersants as part of the BP oil spill 
response. Additionally, on May 26, 2010, EPA and USCG directed BP to 
significantly decrease the overall volume of dispersant used and to 
cease use of dispersant on the surface of the water altogether unless 
conditions on the ground limited the use of other mechanical means. 
Since that directive, we have seen the total volume of dispersants used 
fall by 72 percent from their peak levels.
    EPA has also established an extensive network to rigorously monitor 
the air, water, and sediments for the presence of dispersants and crude 
oil components that could have an impact on health or the environment. 
All monitoring information and data are posted on EPA's Web site at: 
http://www.epa.gov/bpspill/. In addition, for subsea monitoring, the 
toxicity data generated from this monitoring to date does not indicate 
significant effects on aquatic life. We are closely watching the 
dissolved oxygen levels, which so far remain in the normal range. 
Moreover, decreased size of the oil droplets is a good indication that, 
so far, the dispersant is effective.
    Because of the unprecedented volumes of dispersant being used in 
the United States and because much is unknown about the underwater use 
of dispersants, Addendum 2 to the May 10, 2010 directive requires BP to 
determine whether a less toxic, equally effective product is available. 
Normally the manufacturers conduct such tests independently; however, 
EPA began its own scientific testing of eight dispersant products on 
the National Contingency Plan Product Schedule. EPA required toxicity 
tests to standard test species, including a sensitive species of Gulf 
of Mexico invertebrate (mysid shrimp) and fish (silverside) which are 
common species in Gulf of Mexico estuarine habitats. The invertebrate 
and fish species tested are considered to be representative of the 
sensitivity of many species in the Gulf of Mexico, based on years of 
toxicity testing with other substances. Initial peer reviewed results 
from the first round of EPA's toxicity testing indicated that none of 
the eight dispersants tested, including the product currently in use in 
the gulf, COREXIT 9500 A, displayed biologically significant endocrine 
disrupting activity. The results are posted on our Web site at http://
www.epa.gov/bpspill/dispersants-testing.html.
    While we await the final round of scientific testing, it appears 
that all the products that are currently registered have similar 
impacts on aquatic life. While this is important information to have, 
additional testing is needed to further inform the use of dispersants. 
The next phase of EPA's testing will assess the acute toxicity of 
multiple concentrations of Louisiana Sweet Crude Oil alone and 
combinations of Louisiana Sweet Crude Oil with each of the eight 
dispersants for two test species.
                        research and development
    Numerous questions have been raised on the effectiveness of 
dispersants, their inherent toxicity, the toxicity of dispersed oil, 
and how to deal with the shoreline and wetlands that are now being 
impacted as the spill moves to shore. Historically, EPA has had a 
modest oil spill research and development program. Events of the past 
several weeks associated with the Deepwater Horizon oil spill have made 
it evident that this modest investment must increase to address the 
uncertainties that have arisen. The administration has requested 
supplemental funds for dispersant research associated with the 
Deepwater Horizon oil spill. If the funds are appropriated, EPA plans 
to engage institutions and other Federal agencies, such as NOAA and 
DOI, who have the knowledge and expertise to assist the Agency. The 
$2.0 million requested by the President will support research that will 
begin to provide a greater understanding of the short and long term 
implications to the environment and public health associated with the 
spill and the application, surface and undersea, of dispersants. We 
will also further our research efforts to include innovative and 
expansive approaches to spill remediation.
    The President's request represents an important step forward to 
improve our understanding of the impacts and implications of the use of 
dispersants and exposure to the dispersed oil and the potential impact 
on the environment and human health. EPA intends to continue to pursue 
an aggressive research agenda over time which will address the 
mechanisms of environmental fate, effects, and transport of the 
application of dispersants on released crude oil. This will be 
conducted by both assessing the risks to human health from exposure to 
chemical dispersants and chemically-dispersed oil mixtures through 
direct and indirect exposure and increasing our understanding of 
chemical dispersants and dispersed oil, including its toxicity over a 
broad range of aquatic and terrestrial ecosystems and species. EPA will 
also collaborate with NOAA and other Federal agencies to study the 
environmental and human health impacts of dispersants and chemically-
dispersed oil.
                        summary and conclusions
    EPA will continue to provide full support to the USCG and the 
Unified Command, and will continue to take a proactive and robust role 
in dispersant use as well as monitoring, identifying, and responding to 
potential public health and environmental concerns, including waste 
management and beach cleanup. EPA, in coordination with our Federal, 
State, and local partners, is committed to protecting gulf coast 
communities from the adverse environmental effects of the Deepwater 
Horizon oil spill. As local gulf coast communities assess the impact of 
the Deepwater Horizon oil spill on their economies, EPA, in partnership 
with other Federal, State, and local agencies, as well as other 
community stakeholders, will devote its efforts necessary to assist in 
the oil spill response. At this time I welcome any questions you may 
have.

    Senator Mikulski. I now return to Dr. Larry Robinson, the 
leader in science from NOAA. We want to thank Dr. Robinson for 
being here. I had an extensive conversation with Dr. Lubchenco 
about 3 weeks ago. I know that she is on travel and rather than 
delay the hearing, we felt that Dr. Robinson would very ably 
represent her and we ask you to proceed.
STATEMENT OF HON. LARRY ROBINSON, ASSISTANT SECRETARY 
            OF COMMERCE FOR OCEANS AND ATMOSPHERE, 
            NATIONAL OCEANIC AND ATMOSPHERIC 
            ADMINISTRATION, DEPARTMENT OF COMMERCE
    Dr. Robinson. Thank you, Chairwoman Mikulski and other 
members of the subcommittee for the opportunity to testify on 
the National Oceanic and Atmospheric Administration's role in 
the Deepwater Horizon BP spill response and the use of 
dispersants.
    I'm Larry Robinson. I am the Assistant Secretary of 
Commerce for Oceans and Atmosphere. I appreciate the 
opportunity to discuss the critical roles NOAA serves during 
oil spills and the importance of our contributions to protect 
and restore the natural resources, communities and economies 
affected by this tragic event.
    The Deepwater Horizon spill is a stark reminder that large 
oil spills still occur and that we must rebuild and maintain 
our response capacity.
    When an oil spill occurs, there are no good outcomes. Once 
oil is spilled, responders may use a variety of oil-spill 
countermeasures to reduce the adverse effects of spilled oil on 
the environment.
    For the Deepwater Horizon spill, the Unified Command's 
response posture has been to fight the oil offshore and reduce 
the amount of oil that comes ashore using a variety of 
countermeasures including dispersants.
    Chemical dispersants can be an effective tool in the 
response strategy, but, like all methods, involve tradeoffs in 
terms of effectiveness and potential for collateral impacts.
    Consideration of what we have learned from both research 
and real-world experience has factored into the decision making 
on the use of dispersants for this spill. Research on the 
effectiveness and effects of dispersants and dispersant and 
dispersed oil has been underway for more than three decades, 
but vital gaps still exist.
    One area of focus has been on determining the toxicity of 
long-term effects of dispersants and dispersed oil on sensitive 
marine life. It is now clear that effective dispersed oil 
declines rapidly in concentration due to ocean mixing, and it 
degrades faster than untreated surface oil or shoreline oil.
    The effect of dispersed oil on marine life depends on 
concentration and duration of exposure of organisms to the 
dispersed oil. At the sea surface, early life stages of fish 
and shellfish are much more sensitive than juveniles or adults 
to dispersants and dispersed oil.
    There are no data on the toxicity of dispersed oil to deep-
sea marine life at any stage, so we have to extrapolate based 
upon existing knowledge.
    However, at the surface and subsurface, modeling and 
monitoring is confirming that dispersed oil concentrations 
decline rapidly with distance from the wellhead as it mixes 
with sea water and moves with the currents away from the 
treated areas.
    NOAA has been conducting chemical analysis of seafood 
collected in the aftermath of the Deepwater Horizon incident. 
Seafood samples consisting of finfish, shrimp and oysters are 
analyzed for polycyclic aromatic hydrocarbons or PAHs, Madam 
Chairwoman, to measure uptake of these compounds present in oil 
by marine species.
    To date, none of the seafood samples analyzed for these 
compounds have concentrations that exceed EPA's and FDA 
guidelines ensuring seafood reaching the marketplace is safe to 
eat.
    To help support additional research, the administration has 
requested supplemental funds to support dispersant research 
associated with the Deepwater Horizon oil spill.
    If appropriated, the $2 million requested by the President 
would allow NOAA, along with EPA and the Department of the 
Interior, to support research that will begin to provide a 
better understanding of the short- and long-term implications 
to the environment and human health associated with the spill 
and surface and undersea applications of dispersants.
    The dynamic nature of the Deepwater Horizon oil spill has 
been a challenge for many and has raised many questions. To 
help answer those questions, NOAA launched a one-stop shop for 
detailed, near-real-time information about the response to the 
Deepwater Horizon oil spill.
    Originally designated for respondents, the Web site 
www.geoplatform.gov integrates the latest data on oil spills' 
trajectory, fishery-closed areas, and oil shorelines, and 
positions research ships into one interactive map.
    The launch of this public site is designed to facilitate 
transparency and communication and coordination among a variety 
of users from Federal, State and local responders to local 
community leaders and the public at large.
    As the response to this spill continues, the Unified 
Command will continually reevaluate our response strategies, 
actions and planning. NOAA will continue to provide scientific 
support to the Unified Command.
    I would like to assure you that we will not relent in our 
efforts to protect the livelihoods of gulf coast residents and 
mitigate the environmental impacts of this spill.

                           PREPARED STATEMENT

    In conjunction with other Federal agencies, we will 
continue to monitor the use of dispersants and, as new 
information is generated, we will appropriately advise the 
Unified Command.
    Thank you for allowing me to testify on NOAA's response 
efforts, and I'm happy to answer any questions that you might 
have.
    [The statement follows:]
               Prepared Statement of Hon. Larry Robinson
    Thank you, Chairman Mikulski and members of the subcommittee, for 
the opportunity to testify on the Department of Commerce's National 
Oceanic and Atmospheric Administration's (NOAA) role in the Deepwater 
Horizon BP oil spill response and the use of dispersants. My name is 
Dr. Larry Robinson and I am an Assistant Secretary of Commerce for 
Oceans and Atmosphere. I appreciate the opportunity to discuss the 
critical roles NOAA serves during oil spills and the importance of our 
contributions to protect and restore the natural resources, 
communities, and economies affected by this tragic event.
    NOAA's mission is to understand and predict changes in the Earth's 
environment. NOAA also conserves and manages coastal and marine 
resources to meet our Nation's economic, social, and environmental 
needs. As a natural resource trustee, NOAA is one of the Federal 
agencies responsible for protecting, assessing, and restoring the 
public's coastal natural resources when they are harmed by oil spills. 
As such, the entire agency is deeply concerned about the immediate and 
long-term environmental, economic, and social impacts to the gulf coast 
and the Nation from this spill. NOAA is fully mobilized and working 
tirelessly to reduce impacts on the gulf coast and will continue to do 
so until the spill is controlled, oil is cleaned up, natural resource 
injuries are assessed, and restoration is complete.
    My testimony today will discuss NOAA's role in the Deepwater 
Horizon response and natural resource damage assessment process 
associated with the Deepwater Horizon oil spill, for which BP is a 
responsible party; NOAA's role in use of dispersants as a 
countermeasure to mitigate the impacts of the spill; and opportunities 
to strengthen the Federal response to future events through research 
and development.
                     noaa's roles during oil spills
    NOAA has three critical roles mandated by the Oil Pollution Act of 
1990 and the National Contingency Plan (NCP):
  --During the emergency response, NOAA conducts research and 
        monitoring and communicates scientific information to the 
        Federal On-Scene Coordinator (FOSC). The Scientific Support 
        Team is designated as a special team in the NCP and provides a 
        broad array of scientific services to the response.
  --As a natural resource trustee, NOAA conducts a Natural Resource 
        Damage Assessment (NRDA) jointly with co-trustees to assess and 
        restore natural resources injured by the oil spill. NRDA also 
        assesses the lost uses of those resources, such as recreational 
        fishing, and swimming, with the goal of implementing 
        restoration projects to address these losses.
  --Finally, NOAA represents the Department of Commerce in spill 
        response preparedness and decisionmaking activities through the 
        National Response Team and the Regional Response Teams.
Response
    The U.S. Coast Guard (USCG) is the FOSC and has the primary 
responsibility for managing coastal oil spill response and clean-up 
activities in the coastal zone. During an oil spill, NOAA's Scientific 
Support Coordinators deliver technical and scientific support to the 
USCG. NOAA's Scientific Support Coordinators are located around the 
country in USCG Districts, ready to respond around the clock to any 
emergencies involving the release of oil or hazardous substances into 
the oceans or atmosphere. Currently, NOAA has deployed all of its 
Scientific Support Coordinators from throughout the country to work on 
the Deepwater Horizon oil spill.
    With over 30 years of experience and using state-of-the-art 
technology, NOAA continues to serve the Nation by providing its 
expertise and a suite of products and services critical for making 
science-based decisions. Examples include trajectory forecasts on the 
movement and behavior of spilled oil, overflight observations, spot 
weather forecasts, emergency coastal survey and charting capabilities, 
aerial and satellite imagery, and real-time coastal ocean observation 
data. Federal, State, and local entities look to NOAA for assistance, 
experience, local perspective, and scientific knowledge. NOAA's Office 
of Response and Restoration was called upon for scientific support 200 
times in 2009.
Natural Resource Damage Assessment
    Stewardship of the Nation's natural resources is shared among 
several Federal agencies, States, and tribal trustees. NOAA, acting on 
behalf of the Secretary of Commerce, is the lead Federal trustee for 
many of the Nation's coastal and marine resources, and is authorized by 
the Oil Pollution Act of 1990 (OPA) to recover damages on behalf of the 
public for injuries to trust resources resulting from an oil spill. 
Regulations promulgated by NOAA under the Oil Pollution Act encourage 
compensation in the form of restoration of the injured resources, and 
appropriate compensation is determined through the NRDA process. Since 
the enactment of OPA, NOAA, together with other Federal, State, and 
tribal co-trustees, has recovered approximately $500 million for 
restoration of natural resources injured by releases of oil or 
hazardous substances, as well as injuries to national marine sanctuary 
resources, including vessel groundings.
National and Regional Response Teams
    The National Oil and Hazardous Substances Pollution Contingency 
Plan, more commonly called the NCP, is the Federal Government's 
blueprint for responding to both oil spills and hazardous substance 
releases. The NCP's purpose is to develop a national response 
capability and promote overall coordination among the hierarchy of 
responders and contingency plans. NOAA represents the Department of 
Commerce on the National Response Team and Regional Response Teams 
which develops policies on dispersant use, best clean-up practices and 
communications, and to ensure access to science-related resources, 
data, and expertise during responses to oil spills.
             noaa's role in the deepwater horizon response
    NOAA's scientific experts have been assisting with the response 
from the first day of the Deepwater Horizon BP oil spill, both on-scene 
and through our headquarters and regional offices. NOAA's support 
includes daily trajectories of the spilled oil, weather data to support 
short and long range forecasts, and hourly localized ``spot'' forecasts 
to determine the use of weather dependent mitigation techniques such as 
oil burns and chemical dispersant applications. NOAA uses satellite 
imagery and real-time observational data on the tides and currents to 
predict and verify oil spill location and movement. To ensure the 
safety of fishermen and consumer seafood safety, NOAA scientists are in 
the spill area taking water and seafood samples, and NOAA has put 
fisheries closures in place to maintain consumer confidence in the 
safety of consuming seafood from the Gulf of Mexico region. In 
addition, NOAA experts are providing expertise and assistance regarding 
sea turtles, marine mammals, and other protected resources such as 
corals.
    At the onset of this oil spill, NOAA quickly mobilized staff from 
its Damage Assessment Remediation and Restoration Program to begin 
coordinating with Federal and State co-trustees and the responsible 
parties to collect a variety of data that are critical to help inform 
the NRDA. NOAA is coordinating the NRDA effort with the Department of 
the Interior (another Federal co-trustee), as well as co-trustees in 
five States and representatives for at least one responsible party, BP. 
NOAA and the co-trustees are in the initial phase of this process and 
are currently gathering data on resources such as fish, shellfish, 
birds, and turtles, and mammals; their supporting habitats such as 
wetlands, beaches, and corals; and human uses of affected resources, 
such as fishing and recreational uses across the Gulf of Mexico. The 
trustees will then quantify the total losses and develop restoration 
projects that compensate the public for their losses.
                         the use of dispersants
    The Deepwater Horizon spill is a stark reminder that large oil 
spills still occur, and that we must rebuild and maintain our response 
capacity. When an oil spill occurs, there are no good outcomes. Once 
oil has spilled, responders use a variety of oil spill countermeasures 
to reduce the adverse effects of spilled oil on the environment. The 
goal of the Unified Command is to minimize the environmental damage and 
speed recovery of injured resources. The overall response strategy to 
accomplish this goal is to maximize recovery and removal of the oil 
being released while minimizing any additional damage that might be 
caused by the response itself. This philosophy involves making 
difficult decisions, often seeking the best way forward among imperfect 
options.
    Under section 311 of the Clean Water Act, the U.S. Environmental 
Protection Agency (EPA) is required to prepare and maintain a schedule 
of dispersants and other mitigating devices and substances that may be 
used in carrying out the NCP. The NCP requires Regional Response Teams 
(RRT), in which NOAA participates, and Area Committees to plan in the 
advance of spills for the use or non-use of dispersants, to ensure that 
the tradeoff decisions between water column and surface/shoreline 
impacts are deliberated. As the FOSC for this spill response, the U.S. 
Coast Guard is responsible for approving the use of the specific 
dispersant used from the NCP Product Schedule. Because of the 
unprecedented nature of the dispersant operations, the monitoring and 
constraints on application volumes and methodologies are being closely 
managed. In particular, EPA has specified effectiveness and impact 
monitoring plans, application parameters, and action thresholds. Any 
changes to specific Deepwater Horizon dispersant plans require the 
concurrence of EPA and other RRT decision agencies, including NOAA, 
under the NCP.
    NOAA's Scientific Support Team is designated as a special team in 
the NCP and provides a broad array of scientific services to the 
response, including recommendations to the FOSC on the appropriate use 
of dispersants. NOAA is also a member of the Special Monitoring of 
Applied Response Technologies (SMART) program, an interagency, 
cooperatively designed program to monitor the efficacy of dispersant 
and in situ burning operations. SMART relies on small, highly mobile 
teams that collect real-time data using portable, rugged, and easy-to-
use instruments during dispersant and in situ burning operations. Data 
are channeled to the Unified Command to help address critical 
questions. NOAA also uses SMART data to inform 24, 48 and 72 hour oil 
fate and trajectory models as dispersants can augment the behavior of 
the spilled oil.
    The Gulf of Mexico shorelines, and Louisiana's in particular, 
possess extensive marsh habitats that are critical for wildlife and 
fisheries and shoreline protection. NOAA's environmental sensitivity 
index maps rank shoreline vulnerability to oil spills, and marshes are 
considered the most sensitive. Louisiana's marshes are already in a 
weakened condition and large areas are lost every year. These marshes 
and biota are extremely sensitive to oil, very difficult to clean up, 
and highly vulnerable to collateral impacts from response efforts.
    For the Deepwater Horizon spill, the Unified Command's response 
posture has been to fight the spill offshore and reduce the amount of 
oil that comes ashore, using a variety of countermeasures including 
subsurface recovery, booming, skimming, burning, and dispersants. No 
single response method is 100 percent effective, and each has its own 
``window of opportunity'' defined by the state of the oil and weather 
and sea state conditions, thereby establishing a need to consider the 
use of all available methods. It is important to note that, given the 
size and complexity of the Deepwater Horizon spill, no combination of 
response actions can fully contain the oil or completely mitigate the 
impacts until the well is brought under control. But given the enormous 
volume and geographic extent of the spill, the response to date has 
been somewhat successful in limiting shoreline impacts.
    Chemical dispersants can be an effective tool in the response 
strategy, but like all methods, involve trade-offs in terms of 
effectiveness and potential for collateral impacts. Although mechanical 
recovery using skimmers is the preferred method of offshore oil spill 
response because it removes the oil from the environment, it is 
generally ineffective unless seas are fairly calm. The use of 
dispersants to mitigate offshore oil spills is a proven and accepted 
technology to reduce the impacts to shorelines and, under certain 
conditions, can be more effective than mechanical response. This is 
largely due to the fact that spray aircraft can encounter much more of 
the floating oil, and more quickly, than can skimmers Dispersants have 
been used effectively to respond to spills both in the United States 
and internationally. In the United States, notably in the Gulf of 
Mexico, dispersants have been used during the past 15 years against 
much smaller spills off Louisiana and Texas. The largest use of 
dispersants in North America (2.7 million gallons) was in the Gulf of 
Mexico during the 1979-1980 Ixtoc I blowout in Campeche Bay, Mexico.
    The NCP establishes a framework for the use of dispersants in an 
oil spill response. The NCP states that RRT and area committees will 
address, as part of their planning activities, the desirability of 
using dispersants and oil spill control agents listed on the NCP's 
National Product Schedule. The NCP goes on to state that area 
contingency plans (ACP) will include applicable pre-authorization plans 
and address the specific contexts in which such products should and 
should not be used. If the RRT representatives for EPA, the Department 
of Commerce, and Department of the Interior natural resource trustees, 
and the States with jurisdiction over the regional waters for which the 
preauthorization plan applies, approve in advance the use of certain 
dispersant products under specified circumstances as described in the 
preauthorization plan, the FOSC may authorize the use of the products 
without obtaining additional concurrences. In Region VI, which includes 
the Gulf of Mexico, dispersant use is pre-authorized in offshore water, 
beyond the 3-mile limit. The preauthorization of alternative 
countermeasures in the response plans allows for quick implementation 
of the pre-approved countermeasures during a response, when timely 
action is critical to mitigate environmental impacts.
    For all dispersant operations, the FOSC must activate the SMART 
monitoring team to monitor the effectiveness of the dispersant. 
Dispersant use for the Deepwater Horizon oil spill was, and continues 
to be, performed in accordance with ACP guidelines and with RRT 
approval. In consideration of the size and duration of the oil spill, 
the amounts of dispersant being used, and the unusual sea bed injection 
method of application, a directive was approved by EPA and State 
representatives for the Region 6 Regional Response Team to put specific 
restrictions and monitoring requirements in place concerning dispersant 
use for the Deepwater Horizon BP spill as a condition of FOSC 
authorization for use. NOAA's Scientific Support Coordinators, 
supported by NOAA's team of scientists at its Emergency Response 
Division and in consultation with trustees, is advising the FOSC on 
when and where dispersants should be used to determine the most 
effective and appropriate use of dispersants.
    Dispersants are chemicals that may be applied directly to the 
spilled oil in order to remove it from the water surface by dispersing 
it into the upper layer of the water column. Dispersants are commonly 
applied through specialized equipment mounted on an airplane, 
helicopter or ship. The dispersant must be applied as a mist of fine 
droplets and under a specific range of wind and sea state conditions. 
Once applied at the surface, dispersants help break up the oil into 
tiny micron-sized droplets (size of the cross section of a hair) which 
mix into the upper layer of the ocean. Because of the high encounter 
rate of aircraft, they allow for the rapid treatment of large areas. 
Dispersed oil does not sink; rather it forms a ``plume'' or ``cloud'' 
of oil droplets just below the water surface. The dispersed oil mixes 
vertically and horizontally into the water column and is diluted. Once 
formed, bacteria and other microscopic organisms then act to degrade 
the oil within the droplets more quickly than if the oil had not been 
dispersed. It should be noted that oil spilled from the Deepwater 
Horizon incident is also naturally dispersing into the water column due 
to the physical agitation of the wind, waves, and vessel operations.
    The Deepwater Horizon spill has also for the first time in the 
United States implemented the use of subsurface dispersants at the 
wellhead. This is being applied through the use of Remotely Operated 
Vehicles (ROV). The decision to use subsurface applications was made by 
the FOSC with concurrence by RRT Region VI after several test 
applications to determine the efficacy, and development and 
implementation of a monitoring protocol. Monitored levels of dissolved 
oxygen levels within the dispersed oil plume and rotifer toxicity test 
results are reviewed daily to determine whether changes in the sea bed 
injection protocol should be considered. Further, the amount of 
dispersant applied through sea bed injection is limited to 15,000 
gallons during any calendar day without written approval from the FOSC 
to exceed this level.
    Spill response often involves a series of environmental trade-offs. 
The overall goal is to use the response tools and techniques that will 
minimize the overall environmental damage from the oil. The use of 
dispersants is an environmental trade-off between impacts within the 
water column, on the sea surface (birds, mammals, and turtles in 
slicks) and on the shore. Dispersants do not remove the oil from the 
environment. When a decision is made to use dispersants, the decision 
maker is reducing the amount of oil on the surface where it may affect 
birds, mammals and turtles, when they are at or near the surface, and 
ultimately that oil that may come ashore, in exchange for increasing 
the amount of oil in the upper layer of the water column 40 miles off 
shore. The effects of dispersants and dispersed oil below the surface 
on diving birds, marine mammals, and sea turtles are unknown. Under 
ideal conditions, each gallon of dispersant applied offshore prevents 
about 20 gallons of oil from coming onto the beaches and into the 
marshes of the gulf coast.
    The gulf coast is home to coastal wetlands and marshes that are 
biologically productive and ecologically important to nesting 
waterfowl, sea turtles, fisheries, and essential fish habitat. The Gulf 
of Mexico region's ecological communities are essential to sustaining 
local economies, recreational experiences, and overall quality of life. 
The extensive marshes themselves provide coastal communities with 
protection from severe storms, such as Hurricane Katrina. These 
habitats are highly sensitive to oiling. Once oil does impact marshes, 
there are limited cleanup options, and potential for significant long-
term impacts. As oil has moved ashore from the Louisiana coast to the 
Florida panhandle from the BP Deepwater Horizon spill, we have seen 
firsthand the impacts this oil has on these habitats, and to birds, 
turtles and other wildlife. Although it may not be readily apparent, 
use of dispersants offshore and in deep water, is reducing the amount 
of oil reaching the shoreline, reducing the amount of shoreline cleanup 
that will be required, and helping to reduce recovery time of injured 
nearshore resources. Without the use of dispersants, the shoreline 
impacts along the gulf coast from the Deepwater Horizon spill would be 
greater.
research on the effectiveness and effects of dispersants and dispersed 
                                  oil
    Research on the effectiveness and effects of dispersants and 
dispersed oil have been underway for more than three decades but 
important gaps still exist. Much of what we have learned from both 
research and real world experience is presented in detail in the 2005 
National Research Council (NRC) book ``Oil Spill Dispersants: Efficacy 
and Effects.'' The NRC identified gaps in our knowledge. These gaps 
were narrowed by research and development activities carried out 
through projects conducted by the Coastal Response Research Center 
(CRRC), and State and Federal agencies, and academia. The CRRC was a 
successful joint partnership established in 2004 between the University 
of New Hampshire and NOAA's Office of Response and Restoration.
    One area of focus has been on determining the toxicity and effects 
of dispersants and dispersed oil on sensitive marine life. It is now 
quite clear that effectively-dispersed oil declines rapidly in 
concentration due to ocean mixing, degrades faster than untreated 
surface or shoreline oil, and that the toxicity of dispersants is 
considerably less than the toxicity of the oil that is dispersed. The 
acute (4 day) toxicity of dispersants and dispersed oil for the most 
sensitive species and life stages of fish and crustaceans occurs at 
concentrations in the low part per million (ppm) range (data compiled 
from NAS 2005: Oil Spill Dispersants: Efficacy and Effects). Despite 
this general statement, reports exist of more sensitive life stages and 
species. For example, effects on fertilization and metamorphosis of 
coral larvae are reported at sub-part per million concentrations (e.g., 
Negri and Heyward (2000), Marine Pollution Bulletin 41(7-12): 420-427). 
Very little is known about the species found in the deep ocean near the 
Deepwater Horizon Release site or the susceptibility of these species 
to dispersed oil toxicity at cold temperatures and high pressures.
    On June 28, 2010, the EPA released the first two of its newly-
updated studies on the toxicities of dispersants on silverside fish and 
small crustacean species. The primary purpose of these studies was to 
determine the toxicity differences among different dispersant products. 
COREXIT 9500, the main product used in the Deepwater Horizon BP oil 
spill response, was found to be ``slightly toxic'' for one test species 
and ``practically non-toxic'' for the other. LC50 concentrations, the 
concentration at which half the test organisms died, were 42ppm and 
130ppm respectively. While these are favorable results, we note the two 
species tested are not considered particularly sensitive and early life 
history stages of these species were not considered. EPA continues to 
perform toxicity testing on the dispersants and will release additional 
reports as the results become available.
    The effects of the dispersed oil on marine life depend on 
concentration and duration of exposure of organisms to the dispersed 
oil. At the sea surface, early life stages (eggs and larvae) of fish 
and shellfish are much more sensitive than juveniles or adults to 
dispersants and dispersed oil. This increased sensitivity coupled with 
the fact that these organisms reside just below the surface of the 
ocean (as do plankton, zooplankton) where concentrations of the 
dispersed oil are initially greatest means that these organisms are 
most likely to be impacted. There are no data on the toxicity of 
dispersed oil to deep-sea biota at any life stage, so we have to 
extrapolate based on existing knowledge. However, in both regions 
(surface and deepwater), modeling and monitoring is confirming that 
dispersed oil concentrations decline rapidly with distance from the 
well head as the ``clouds'' or ``plumes'' mix with sea water and move 
with the currents away from the treatment areas.
    NOAA's National Marine Fisheries Service laboratories in Seattle, 
Washington have been conducting chemical analysis of seafood collected 
in the aftermath of the Deepwater Horizon BP oil spill. Seafood 
samples, consisting of finfish, shrimp, and oysters are analyzed to 
measure uptake of polycyclic aromatic hydrocarbons (PAH) present in oil 
by marine species. To date, none of the seafood samples analyzed have 
PAH concentrations that exceed EPA and Food and Drug Administration 
guidelines, ensuring seafood reaching marketplace is safe to eat.
    NOAA also has expertise in determining the effects from exposure to 
oil on fish. The research shows that early life stages of fish are 
sensitive to the predominant polycyclic aromatic hydrocarbons in oil. 
Studies with the model fish species, zebrafish has shown that 
cardiovascular development in fish embryos and larvae is a marker of 
exposure to oil. NOAA's Northwest Fisheries Science Center is 
conducting preliminary studies to assess sub-lethal effects of crude 
oil from the Deepwater Horizon oil spill on embryonic larvae of 
zebrafish. These results are being compared to earlier studies on 
embryos with Alaska North Slope crude oil. In addition, the researchers 
are planning on using the zebrafish model to assess any effects from 
exposure to dispersants and in particular the effects from dispersant 
and oil combinations.
    While numerous studies have been conducted on the fate and 
transport of oil dispersed on the surface, the fate and transport of 
oil dispersed at depth is less understood. While the application of 
dispersants into a subsurface plume has never been studied, we expect 
the result to be similar to that of surface dispersant application, and 
thus result in even smaller droplets of oil in the plume. These very 
small droplets (100 microns) will rise extremely slowly while being 
mixed by background turbulence, so that they stay at depth, moving with 
the currents, until biodegraded, consumed by naturally occurring micro-
organisms, or adhere to sinking sediment. Preliminary modeling suggests 
average rise could increase from a few hours to several days with sub-
surface dispersant application. We also expect some fraction to sink 
because of adherence to sinking sediments.
    Another major activity involving marine resource trustees has been 
a series of nearly 20 Consensus Ecological Risk Assessment (C-ERA) 
Workshops which were held all around the United States and adjacent 
international coastlines. These workshops, many lasting 1 week or more 
and sponsored by the U.S. Coast Guard, EPA and Department of the 
Interior, focused the attention of trustees of alternative response 
scenarios of large spills, including no response, on-water mechanical 
removal, in situ burning, dispersant use and shoreline clean up. 
Trustees evaluated the impacts and benefits of each realistic response 
option to their trust resources (marshes, shorelines, mammals, birds, 
fish, etc.) and then had to work on reaching consensus regarding the 
least damaging mix of response options for their specific area. The 
results of these workshops have provided valuable information for 
revising response plans in a number of states and countries.
activities to assess presence of subsurface oil from deepwater horizon 
                                 spill
    Since the beginning of May, NOAA has been conducting and 
coordinating sampling of the subsurface region around the Deepwater 
Horizon well-head and beyond to characterize the presence of subsurface 
oil. The sub-surface search involves the use of sonar, UV instruments 
called fluorometers, which can detect the presence of oil and other 
biological compounds, and collection of water samples from discrete 
depths using a series of bottles that can be closed around a discrete 
water sample.
    NOAA, Federal partners, academics, and others in the research 
community have mobilized to research and quantify the location and 
concentration of subsurface oil from the spill. NOAA Ships Gordon 
Gunter and Thomas Jefferson have both conducted missions to collect 
water samples from areas near the wellhead as well as further from the 
wellhead and in the coastal zone. Water samples from many of these 
missions are still being analyzed and additional missions are in 
progress or being planned to continue the comprehensive effort to 
define the presence of oil below the surface and understand its 
impacts.
    Water samples taken by researchers on the R/V Pelican and the R/V 
Weatherbird II have also been analyzed for the presence of subsurface 
oil. These samples from the R/V Weatherbird II confirmed low 
concentrations of surface oil from the Deepwater Horizon spill 40 
nautical miles northeast of the wellhead. Additionally, hydrocarbons 
were found in samples 45 nautical miles northeast of the wellhead-at 
the surface, at 50 meters, and at 400 meters-however, the 
concentrations were too low to confirm the source.
    In accordance with FOSC and EPA requirements for the use of 
subsurface dispersants, BP contracted ships, R/V Brooks McCall and the 
Ocean Veritas, have been collecting water samples in the area close to 
the wellhead. NOAA, EPA, and the White House Office of Science and 
Technology Policy (OSTP) released a summary report about the subsea 
monitoring in the vicinity of the Deepwater Horizon wellhead conducted 
from the R/V Brooks McCall from May 8-25, 2010. The report also 
confirms the existence of a previously discovered cloud of diffuse oil 
at depths of 3,300 to 4,600 feet near the wellhead. Preliminary 
findings indicate that total petroleum hydrocarbon (TPH) concentrations 
at these depths are in concentrations of about 1-2 parts per million 
(ppm). Analysis shows this cloud is most concentrated near the source 
of the leak and decreases with distance from the wellhead. Beyond 6 
miles from the wellhead, concentrations of this cloud drop to levels 
that are not detectable. Decreased droplet size is consistent with 
chemically-dispersed oil. Dissolved oxygen levels in the water column 
are largely what are expected compared with historical data.
    The Unified Command has established an inter-agency Joint Analysis 
Group (JAG) to aggregate and analyze all the relevant data from the 
many subsurface oil missions in order to have a comprehensive picture 
of the situation. This group is made up of Federal scientists from 
NOAA, EPA and OSTP.
                               conclusion
    As the response to this oil spill continues, the Unified Command 
will continually reevaluate our response strategies, actions, and 
planning. NOAA will continue to provide scientific support to the 
Unified Command and continue our coordination with our Federal and 
State co-trustees on the NRDA. I would like to assure you that we will 
not relent in our efforts to protect the livelihoods of gulf coast 
residents and mitigate the environmental impacts of this spill. In 
conjunction with the other Federal agencies, we will continue to 
monitor the use of dispersants and as new information is generated we 
will appropriately advise the Unified Command. Thank you for allowing 
me to testify on NOAA's response efforts. I am happy to answer any 
questions you may have.

    Senator Mikulski. Thank you very much, Dr. Robinson.
    The impact of this oil spill is not only in the Gulf 
States, and the consequences of issues, like safety of the 
seafood and the food, goes far and wide. We, in the State of 
Maryland, rely heavily on our friends in the gulf for oysters, 
for the well-known and yummy gulf shrimp, and they are a good 
supplement to our wonderful Chesapeake Bay blue crabs.
    We need to know that seafood is safe, and the American 
public needs to know that seafood is safe for the simple reason 
that we want them to continue to feel comfortable buying gulf 
products, so that the economic consequences are not multiplied.
    Well, first of all, they've closed the fishing areas. 
They've closed the beaches, but they've closed the fishing 
areas, and then people say, ``Well, I'm not going to buy it 
because I worry about it.'' So, one, we need to assure the 
safety, and then we need to be able to have good public 
information about that.
    I'm going to come back to that, but I want to go right to 
this idea of the Unified Command and who does what. I've been 
concerned about the Unified Command, because it sounds to me--
when I heard it, it sounded so cool and ``command'' and 
``control'' and ``decisive'' and ``quick witted'' and ``swift 
of boat and foot.''
    But when I got there, it was a committee, and it was a 
committee of coordinators. And I'm not knocking it, because the 
enormity of this is something also quite stunning to see, all 
the boats and all that's affected, and the vastness of 7,000 
miles of gulf coast shoreline.
    But who--Ms. Jackson, when you make your recommendations, 
is it the Coast Guard in this Unified Command that calls the 
shots? Are you advisory to the Coast Guard or could you--do you 
have the power to ban or limit the use of dispersants or any 
other product that you would deem, scientifically based, would 
have a negative consequence? What power do you have to act?
    Ms. Jackson. The National Incident Commander is Retired 
Admiral Thad Allen.
    Senator Mikulski. Yes.
    Ms. Jackson. The Federal On-Scene Coordinator has rotated. 
It's currently Admiral Z [Zukunft]. I can't pronounce his last 
name, so I'll say Z. We all call him Admiral Z. But it's been a 
succession of admirals.
    They are the final decisionmakers. In any chain of command, 
there is a pyramid, and they are at the top reporting directly 
to Secretary Napolitano and the President.
    That said, as head of the Environmental Protection Agency, 
I have made my opinions and views and scientific concerns known 
on a range of issues during this response. And Admiral Allen 
has been very receptive, very receptive to understanding that 
there are dimensions to this response that are environmental, 
not simply about the operational day-to-day fighting of the 
oil.
    Senator Mikulski. So can you ban dispersants or limit their 
use or does he have to give the approval?
    Ms. Jackson. Can I personally--I think it is a matter of 
untested law as to whether EPA--there is no permit that EPA has 
given to allow use of these dispersants. So I would not know, 
and I am not an attorney, but perhaps I can get you the 
information.
    Senator Mikulski. No, but you are the head of EPA, so if 
you said, Admiral Allen, we're now heading into a danger zone 
or flashing yellow light so significant, better be safe than 
sorry----
    Ms. Jackson. Yes.
    Senator Mikulski [continuing]. I'm going to either ban or 
limit the use of dispersants, could you have the power to act 
unilaterally?
    Ms. Jackson. I believe I do, chairwoman, but I do want my 
lawyers to get you a response on record----
    Senator Mikulski. I know, but that's a question you needed 
to know from day one, Ms. Jackson, because, look, everyone at 
this table, we're coastal Senators and we love our Coast Guard. 
I am telling you, we in Maryland love our Coast Guard.
    But they're operational people. They do search and rescue. 
They have the authority to clean up a limited oil spill if it 
would occur--God forbid--in the Bay--et cetera, but the Coast 
Guard are not scientists. They are not scientists. They are 
under the Department of Homeland Security, which means they are 
protectors.
    So how would they know whether your idea was good or not 
when you are the idea basis, and Mr. Green's science, combined 
with you, are the repository of scientific knowledge in these 
fields?
    Ms. Jackson. Well, part of the reason I'm hesitating, 
chairwoman, is twofold. No. 1, that hasn't been tested, because 
I haven't had to walk into Admiral Allen's office, even 
figuratively, and say, I believe you need to stop. And he has 
yet to disagree when I have been forceful in saying we need to 
do something. That's why we have directors.
    And one more thing, chairwoman, there is a----
    Senator Mikulski. I'm not being critical of you and I'm 
not--we're looking at public policy areas where we need to 
really tighten up so we don't screw up.
    Ms. Jackson. I absolutely agree. You started with the idea 
of the Unified Command--that one of the public-policy decisions 
has to be, how do you do what we need to do operationally on 
the ground, which is work, as you said, in a large 
organization, but ensure that there is a chain of command that 
ends with the Federal Government.
    And that is something that I think should be discussed. I 
think a Unified Command makes sense for smaller spills, but on 
something like this, there needs to be additional clarity.
    But I also want to acknowledge the role of NOAA. They are, 
by law, scientific advisors to the Coast Guard. That is their 
job----
    Senator Mikulski. And I presume they're scientific advisors 
to you.
    Ms. Jackson. I'm sorry, say again----
    Senator Mikulski. I mean, don't you two talk to each other?
    Ms. Jackson. Constantly.
    Senator Mikulski. I mean, from the way I saw you in action 
that day----
    Ms. Jackson. Yes.
    Senator Mikulski [continuing]. Yes, I was impressed with 
that aspect of it.
    Ms. Jackson. Yes, ma'am, but they are also--they have a 
legal role to advise the Coast Guard on science because they 
have a trust responsibility to the ocean and----
    Senator Mikulski. Right. I'm going to come back to them and 
in my time, with both Senators Lautenberg and someone who lived 
through an oil spill with the Valdez, I want to be sure my 
colleagues have time to ask a question.
    And, again, we're not bashing anybody, but here, as I 
understand it, EPA had concerns about the amount of dispersants 
being used and the amount that was being used and also were 
concerned enough to direct BP to stop using them on the 
surface. Am I correct?
    Ms. Jackson. That's right----
    Senator Mikulski. And that you, then, gave that advice to 
Admiral Allen. Is that correct?
    Ms. Jackson. Essentially, yes.
    Senator Mikulski. And then what happened? Did they begin to 
limit their use? And then who monitors that? And it says in my 
reporting data that it was limited by a 72-percent decline. Was 
that for 1 day or has that been persistent? And then why did 
you ask them to limit it if everybody felt this was okay?
    So my question was, did you ask that dispersants be 
limited? Why did you ask that? And when you asked that, who 
paid attention or didn't pay attention to you? And then who 
ensures the compliance with both your and the Unified Command's 
directive?
    Ms. Jackson. Thank you, chairwoman.
    A couple of things: yes, we remain, at EPA, concerned about 
the volume of dispersant that has been used to date. As we've 
all noted, this is the largest volume that has ever been used 
in the country.
    Dispersants have been used in the Gulf of Mexico for 15 
years, but it's the volume that any average person, whether 
they have a chemistry degree or not, would be concerned. 
Certainly, I remain concerned about that. We've had many, many 
discussions about it. I did express those concerns, not only to 
Admiral Allen, but, since you ask, yes, Admiral Allen.
    The result was a directive directing BP--cosigned by the 
Coast Guard and EPA--to use no more than 15,000 gallons of 
dispersant in the subsea and to use spraying--aerial spraying, 
for lack of a better term--of the chemical as a last resort.
    And the day that that directive was issued, or the day 
before--don't quote me on dates--BP had gotten up to 70,000 
gallons of chemical used in 1 single day. That was an alarming 
number.
    Senator Mikulski. Well, yes, and to go to our friends--
where we should have learned--lessons learned from the Valdez, 
which was a horrific experience for our neighbors in Alaska; 
they used 250,000 gallons for the whole spill.
    Ms. Jackson. Yes, chairwoman. I do want to compare and 
contrast----
    Senator Mikulski. Yes. Then I've got to go to Robinson----
    Ms. Jackson [continuing]. With respect to the Senator who 
knows her State well, but I do want to talk a little bit about 
the Valdez incident and now, because I think there are very 
important scientific issues here.
    The Gulf of Mexico is no Prince William Sound, and, of 
course, Prince William Sound is no Gulf of Mexico. We're 
talking about a different climate. We're talking about a 
different type of crude. We're talking about a different--we're 
talking about a biological----
    Senator Mikulski. Yes, talk about Valdez with her. Let me 
finish with mine, and I don't mean to cut you off.
    Ms. Jackson. Okay.
    Senator Mikulski. But we do have a vote at 11 o'clock. So 
here is my question: So why did you tell them to limit it? Were 
you that concerned about the unknown factors of dispersant? Why 
did you tell them to limit the use?
    Ms. Jackson. Absolutely. Because there are scientific 
unknowns, we had to make decisions that are a series of 
tradeoffs. And, basically, in common language, it was either 
nothing or in moderation, and my best judgment was that it 
should be in moderation.
    But we should not say no, you may not use any dispersant, 
because, at the time, we were risking that which we've all seen 
on TV, which is large amounts of oil at the surface, which got 
by the skimmers and got by the burners and would end up in the 
marshes where they do the most damage--and in the shallows.
    That tradeoff isn't easy. Every single thing being done out 
at sea comes at some cost. Burning has air pollution risk and 
wildlife risks, and skimming has wildlife risks. But the simple 
question was: Do you say no or do you say in moderation.
    Senator Mikulski. So you said in moderation. And I'm going 
to ask you to submit for the record what additional research 
you think needs to be done and what needs to be done as we move 
forward in our appropriations.
    If I might, colleagues, I just want to go to Mr. Robinson.
    Does or does not NOAA have a protocol to evaluate the 
safety of seafood?
    Dr. Robinson. Yes, ma'am, we do. The first step we take is 
very conservative with regard to the fisheries closures. We 
look for any visible evidence of oil, and we project where the 
oil may go in the next couple of days. And so our first 
strategy is to limit the possible take of fish from any areas 
that have been impacted by oil.
    The next thing we do, in partnership with other Federal 
colleagues at FDA, EPA and the States, is we developed a fairly 
comprehensive seafood safety protocol.
    We have actually taken samples from the gulf area to 
analyze them, not only for oil, but for some of the 
constituents of oil. These polycyclic aromatic compounds that I 
mentioned earlier are fairly toxic to human beings. Thus far, 
we haven't found any evidence of these contaminants in any of 
the species that we've taken outside of the contaminated area.
    So this is a fairly comprehensive set of protocols that we 
have. It's done, I want to emphasize, in collaboration with our 
colleagues at other Federal agencies, and it includes the 
States who are trustees as well.
    I want to point out, however, that our jurisdiction is 
outside of the 3-mile area off the coast.
    Senator Mikulski. And whose jurisdiction is within the 3 
miles?
    Ms. Jackson. That's the State's.
    Senator Mikulski. And then who certifies the States in 
terms of a level of competency to test for this?
    Ms. Jackson. The States then work with the Food and Drug 
Administration [FDA].
    Senator Mikulski. They work with, but who--is FDA in there 
saying--because it's got to be NOAA, FDA on the safety of the 
seafood.
    Ms. Jackson. That's correct, and so FDA works with the 
States to help ensure that fish doesn't reach the marketplace 
that's taken within the 3-mile limit that's contaminated with 
any of these products. And we provide any assistance that they 
need in that process.
    Senator Mikulski. We'll come back to you. I know I've been 
taking this time.
    I'd like to turn to Senator Murkowski, whose State lived 
through one of the very--geologically--I mean, the whole 
terrain's different. Senator Murkowski, then we'll go to 
Senator Lautenberg.
    Senator Murkowski. Thank you, Madam Chairwoman.
    There's--gosh--so many questions you could ask. I want to 
get to the seafood issue and understanding a little bit more 
about the coordination between what's happening at the State 
level within 3 miles and then what NOAA is doing, because fish 
could care less where that 3-mile line is, and in terms of how 
we then market our products, we want to be able to ascertain 
that, yes, in fact, the seafood is safe regardless of where it 
comes from.
    Dr. Robinson. That's correct.
    Senator Murkowski. And so the word that gets out about the 
safety of our seafood and the process that it has gone through, 
whether it's the FDA working with the States or whether it's 
NOAA, that that assurance is given.
    Because I can tell you, as far away as Alaska, with our 
wild salmon, our seafood is being impacted by what's going on 
in the gulf, as I'm sure Senator Mikulski's seafood here on the 
eastern seaboard is, because people--in the Midwest of this 
country, seafood is seafood. They're not really sure where it's 
coming from, so if they're concerned about it, they're going to 
err on the side of not eating it, and this impacts all of us.
    Administrator Jackson, I wanted to ask you a little bit 
about just where we have come since the Exxon Valdez. And you 
had mentioned that the Gulf of Mexico is not Prince William 
Sound and vice versa, most absolutely so. You've got different 
conditions, different oil, different spill, and a different 
climate.
    But one thing that seems to strike me as kind of 
commonality here is 20 years ago, with the Exxon Valdez, we 
weren't really certain how safe these dispersants were. We were 
concerned about their use then, and, now, 20 years later, we're 
concerned about the use of dispersants or certainly the volume 
of the dispersants used as we're dealing with the impact of the 
Deepwater Horizon.
    Can you tell me how much study EPA has actually conducted 
since the Exxon Valdez in terms of use of dispersants, and not 
only their usage in an environment like Prince William Sound, 
but how do you make sure that we really understand, in the 
various conditions that are out there, that the levels that are 
being used are appropriate? Give me some background on the 
research here.
    Ms. Jackson. Thank you, Senator. There has been significant 
research, not only by EPA, on dispersants since the Exxon 
Valdez incident in the 1990s. That said I want to be clear at 
the outset that I don't think it's enough research.
    So we will get, for the record, for you, if you wouldn't 
mind, a list of varying studies. Some were done by the National 
Academy of Sciences. That's one from the 2005, 2006 era that--
--
    Senator Murkowski. And in all different conditions or--can 
you speak to that?
    Ms. Jackson. That one looked at coastal southern Louisiana 
conditions. There have been studies by the institutes set up 
after Valdez on west coast dispersant used. Woods Hole 
Oceanographic Institution has done a variety of work. There is 
an annual conference that NOAA has, which Larry will know the 
name of, I will not. Dr. Robinson will.
    Dispersants are routinely subjects of research papers and--
after every oil spill--and, sadly, there are small incidents 
that are not infrequent--there's a look at what happened with 
dispersants.
    Part of the reasons they're not used in the gulf region, 
for example, within 3 miles or near shore, is a result of 
people's belief that the risk there, as you get closer to 
shore, in the shallower waters, was not worth it.
    There is a significant body of----
    Senator Murkowski. In your opinion, is there enough 
evidence to suggest that it is, in fact, not worth it when you 
get that much closer into shore? I mean, are we defining the 
dispersants in and of themselves as pollutants?
    Ms. Jackson. I would defer to all the research that's out 
there and the experts, but I believe there is more than ample 
reason to not want to use them near shore, in part because the 
reason they're effective at degrading quickly, but you need to 
give them time to degrade in the deep ocean, so that they don't 
show up.
    Our samples are showing up negative for dispersants near 
shore, and that's presumably, because they're breaking down in 
the time it takes for the material to reach the shoreline. We 
don't see it in air. We don't see it in water. So something's 
happening----
    Senator Murkowski. The research that has been done prior to 
Deepwater Horizon, has the research been focused equally on the 
volumes used or are we just talking about the various products? 
How much has been done on volume and safety there?
    Ms. Jackson. We'll get you a response for the record, 
Senator, but I'm not personally aware of any research on 
volume, on upper limit. And another crucial piece of research 
gap is on this subsea dispersant.
    Senator Murkowski. Yes, because this is the first time that 
we have seen it applied directly at the source of the spill. Is 
that correct?
    Ms. Jackson. That's right, Senator.
    Senator Murkowski. And so we have not yet done that level 
of research, whether it's NOAA or any other entity. You're not 
just speaking about EPA's research. You're suggesting to me 
that we haven't done that research anywhere.
    Ms. Jackson. That's correct, Senator.
    Senator Murkowski. Is that equally true, then--is there 
anything internationally? Have the Norwegians done anything? Is 
there a source out there that we could look to that's beyond 
just the national research that's been done?
    Ms. Jackson. I believe there was some limited testing. I 
believe it was in Europe, and we will get you that information 
for the record as well, Senator. It is certainly not the body 
of research you would want in dealing with this matter.
    Obviously, this is an unprecedented event and we had to 
look at that research and then design a program to try to deal 
with the fact that we were dealing with unknowns here.
    Senator Murkowski. Well, I think we do recognize that this 
is unprecedented, but we also recognize that we have been 
operating in offshore conditions for decades now. We look to 
the dispersants as a means of responding in the event of these 
terribly tragic accidents. And I think, in order to put the 
issue somewhat at ease, it's clear that we need to do the 
sufficient testing in all areas.
    We are concerned, of course, not only by what goes on in 
the Gulf of Alaska area, but as we look to explore and develop 
even further north. Those are different conditions altogether. 
We need to know--we need to have that assurance that, in fact, 
these dispersants do what we hope they do and do not add 
additional risk when we're dealing with a spill.
    Thank you, Madam Chairwoman.
    Senator Mikulski. As we turn to Senator Lautenberg, I'd 
like to bring to my colleagues' attention--that the National 
Research Council had published a book in 2005 on oil-spill 
dispersants, and it was a compilation of the work that had been 
done primarily in the 1990s and early 2000. If you recall, in 
2001, a lot of our thinking shifted.
    This is a good document, but it ends in 2005. The work was 
done primarily in the 1990s.
    They have a question that goes like this: ``Better 
information is needed to determine the window of opportunity 
and percentage effectiveness of dispersant application for 
different oil types in different environmental conditions.''
    And then that goes on to say we know something, and what we 
know is based on 1996, 1997, et cetera. So what we have is some 
research. But that's the nature of research. You always need 
new and better.
    So I would recommend to you and your staff this, and, 
really, the executive branch, because we're a committee. We're 
an appropriations committee. You're the ones with the executive 
branch and the people--research to be pouring over, and also 
then see what else we know.
    But, Senator Lautenberg, who's been a staunch defender of 
the coast, and we were happy to join with him in telling the 
President we didn't want Mid-Atlantic offshore drilling.
    And a real champion of the environment.
    Senator Lautenberg. Thank you very much, Madam Chairwoman.
    Despite my tardy arrival, I had an opportunity to listen to 
our most competent chairwoman remind us about what we've got to 
do to make sure that what we're putting in the water isn't more 
dangerous than--or as dangerous, in part--as the oil spill.
    And it's interesting, as we talk about the safety, I think 
subliminally there are questions about the efficiency of this 
material, and I don't know whether that question has been fully 
answered.
    But I'm announcing that I will soon introduce the Safe 
Dispersants Act. The bill requires long-term testing, approval 
and disclosure of all ingredients in dispersants before they 
can be used in response to a spill.
    And I am one of those who still is opposed to offshore 
drilling in the Atlantic, but for areas where drilling 
continues, the law's got to require robust testing and 
disclosure of all chemicals and dispersants.
    And so I want to--I'm happy to see these two expert 
witnesses. Lisa Jackson has New Jersey flowing through her 
veins and that makes her a better student and a better expert 
on what kind of things we have to worry about when we get to 
our coastlines.
    Current law requires only minimal safety testing of 
dispersants. And while you, Ms. Jackson, have taken steps to go 
beyond what the law requires, do we need changes in the law to 
mandate a more complete range of tests that would better 
protect the health of workers, residents and marine life?
    Ms. Jackson. Yes, sir, I believe we do. I also believe the 
law would give us critical transparency and openness 
protections that right now EPA cannot provide by law.
    Senator Lautenberg. So it's very obvious, at least to me 
and, I'm sure, to my colleagues, that the law ought to be 
changed to give the public the right to know about health and 
environmental effects of chemicals in the dispersants.
    There's an old expression about what you know can hurt you, 
and, here, what I come away with is what we don't know can hurt 
us and we've got to step up to this and do our work in advance 
and not be relying on catch up to find out whether or not these 
dispersants, the chemicals therein, are threatening human 
health and the environment.
    On May 20, EPA ordered BP to find a dispersant that's less 
toxic than the one it was using. BP refused and, to this day, 
continues using the same material.
    Now how can BP simply ignore the directive? And does EPA 
have enough muscle, enough strength in law to issue a command 
that says, hey, you've got only a limited time to continue the 
use of these without responding? What's the situation there, 
Ms. Jackson?
    Ms. Jackson. Well, sir, I think it's obvious where the 
actions of BP have always favored the use of dispersants. They 
don't necessarily think they should be limited, and they like 
the one they've chosen.
    I think their answer was designed to throw concern on all 
dispersants, so that we would then have to acknowledge that 
which is a truth and I think has been brought out through this 
hearing, which is that we need more research. We need more 
information on all dispersants, and that is not only a BP 
problem. That is something that I believe needs to come out of 
this issue.
    So, yes, we clearly have the authority to order them to 
switch or to order them to use dispersants at a much lower 
volume. They are doing that. They haven't sprayed--I think in 5 
or 6 days they have not sprayed dispersant. That's through 
constant management of the operational process, but none of 
that replaces the fact that we need more information.
    And one of the things that I certainly hope comes out of 
this is information, not only on what's in the chemicals, but 
different and better testing, so that we, Dr. Robinson and his 
staff and my staff, don't have to try to run models to come up 
with judgment calls on the fly.
    Senator Lautenberg. Well, as you heard me say, next week, 
I'm going to be introducing what we're calling the Safe 
Dispersant Act. It requires long-term testing, approval, 
disclosure of all ingredients in dispersant before it can be 
used in response to a spill. Do you think that this might be a 
sensible course to track and get on with that?
    Ms. Jackson. Yes, Senator, we will review the actual bill. 
I think you sent it over maybe yesterday. We will look at the 
language, but the intent and the principles you've outlined 
line up well with the idea of greater transparency, additional 
testing and, hopefully, a move to less toxic dispersants.
    That same National Academy of Sciences [NAS] report says 
dispersants are much less toxic. It concludes they should be a 
first-response use, but there are critical questions about 
volume, how they're applied, and we should be able to get even 
less toxic dispersants.
    Senator Lautenberg. And also with the regional character of 
the weather and stream flows, et cetera, et cetera.
    Thanks very much, Madam Chairwoman.
    Senator Mikulski. Well, thank you for your leadership, 
Senator Lautenberg. We look forward to looking at that 
legislation and perhaps being joined as an early cosponsor with 
you. Your work early on, particularly on Superfund cleanup and 
others, is actually legendary.
    Senator Lautenberg. Thank you.
    Senator Mikulski. And you've made a difference and you've 
got a real expertise, and we look forward to working with you.
    Senator Lautenberg. Thank you.
    Senator Mikulski. Before the vote begins, I will have a 
question from Senator Shelby, and it's this--I'll come back to 
that.
    But I really have a question for both of you. Lessons 
learned from other countries, and particularly those that are 
our allies, that share our values around safety and efficacy, 
whether it's on pharmaceuticals or dispersants.
    The UK, as I understand it, banned dispersants. That gave 
me pause, and, in fact, it gave me heartburn that the UK would 
ban it, a nation surrounded by water. And if the UK banned it, 
why weren't we banning it? Because they're surrounded by 
oceans, too, they've had their share of oil spills up in the 
North Sea.
    So what is your response to it? Do they know something we 
don't know? You did know the UK banned it.
    Ms. Jackson. Yes, chairwoman. The UK took COREXIT off their 
approved list, just like we have a product schedule. It wasn't 
due to toxicity concerns. It wasn't due to lethality concerns.
    It was due to what they call a Rocky Shore Test, which 
primarily deals with whether or not there's a factor that 
causes mussels and clams to lose adhesion on a rocky shore.
    They have since made clear that they think it is a useful 
dispersant on heavier fuel oil. They're looking at a test 
protocol to determine whether they should be allowing its use 
offshore.
    We don't have a rocky-shore issue here, because we don't 
allow this to be used anywhere near the shoreline. The closest 
I think it's been used is 30 miles from shore.
    So it is fair to say that they had concerns, but I just 
want to be clear to the people of the gulf, it wasn't because 
of toxicity. If there were toxicity issues, that would be 
different. It had to do with the shoreline impact on a rocky 
shore, which obviously is different here as well.
    Senator Mikulski. Well, I appreciate that clarification.
    Dr. Robinson, has NOAA reviewed the way other nations are 
using dispersants and the impact there from the NOAA 
perspective on marine life and the safety of seafood?
    Dr. Robinson. Yes, our scientists have scoured the 
literature to look at what's known about the impacts of 
dispersants on those trusted resources that we are required to 
protect in this region and around the country.
    But, in spite of that, Madam Chairwoman, we are just as 
concerned about the gaps that Administrator Jackson has pointed 
out, as well as those of you here in the Senate. And we really 
welcome the opportunity that will be provided by the $2 million 
the President has proposed to begin a more comprehensive 
research program into the long-term impacts of dispersants in 
these and other systems.
    Senator Mikulski. So do other countries ban the use of 
dispersants because of their concern about the impact on 
seafood? And why don't we go to NATO countries or EU countries 
or countries that are allies like Japan?
    Dr. Robinson. Well, I don't know comprehensively what all 
of those countries do, but----
    Senator Mikulski. Well, I'd like to know. I mean, that's 
the NOAA job.
    Dr. Robinson. Right.
    Senator Mikulski. I would hope that you would look. Did you 
look there?
    Dr. Robinson. Yes, what we have done--well, we are bound by 
the oil producing act of----
    Senator Mikulski. The oil producing act won't let you find 
out what another country does----
    Dr. Robinson. Right.
    Senator Mikulski [continuing]. That is willing to fight and 
die alongside of us in Afghanistan.
    Dr. Robinson. Right. And what we've done with our 
colleagues around the world is to try to get a better sense of 
not only the regulatory framework that they work in, but what 
is the impact these types of compounds are having on these 
valued resources. So, yes, Senator, we are quite interested in 
learning more about what----
    Senator Mikulski. Well, Dr. Robinson, I want you more than 
interested.
    Dr. Robinson. But----
    Senator Mikulski. Sir, I need NOAA on the edge of their 
chair.
    Dr. Robinson. Right.
    Senator Mikulski. I need a sense of urgency here. We're 
going to fund the research. We have a sense of urgency. We need 
you to have that urgency.
    Dr. Robinson. Right. And we----
    Senator Mikulski. And I'd like a list from you--meaning 
from NOAA--by next week on what do NATO nations and those that 
are part of our strategic alliance, we know their value and 
scientific capability, like Japan--what is their listing on the 
use of dispersants. And I'd like it from the EPA perspective 
and the NOAA perspective.
    Dr. Robinson. We'll get that----
    Senator Mikulski. And I would like that by this time next 
week.
    Dr. Robinson. We'll get that information to you, Senator.
    Senator Murkowski. Madam Chairwoman, thank you, just very 
quickly one last question for you, Dr. Robinson. With the 
testing that NOAA has done on the issue of dispersants in the 
seafood, have you detected anything that is noticeable or 
reportable in the seafood that you've been testing?
    Dr. Robinson. Our seafood tests are for oil as well as 
dispersed oil. Our protocols are not specifically looking at 
dispersants or the byproducts of dispersants themselves. That's 
not----
    Senator Murkowski. Are you intending to do that?
    Dr. Robinson. I think that would be an excellent thing for 
us to consider as we've learned from this situation that there 
are other potentials here, perhaps even for bioaccumulation of 
dispersants and their byproducts into seafood. So that's 
something we have on our list of things that we would like to 
know more about.
    Senator Murkowski. Is FDA testing this? You know, we were 
talking earlier about the FDA role with the States in those 
areas 3 miles within our shores. Are they testing for 
dispersants in our seafood?
    Dr. Robinson. I don't think that the protocols presently 
call for the testing of seafood with regard to seafood safety 
for dispersants or dispersants' byproducts. It's really the oil 
and the oil byproducts that we're looking for in seafood at the 
moment.
    Senator Murkowski. So how can we give the consumer the 
assurance that the seafood that is coming from the gulf, in 
these waters, is safe for consumption?
    Dr. Robinson. The evidence that we presently have is that 
the dispersants are broken down fairly quickly and biodegrade 
fairly quickly.
    We don't know with absolute certainty, Senator, that there 
are no traces of dispersants in seafood. Our tests, however, 
looking at the more toxic agents in seafood, focus on the oil 
and the oil byproducts.
    Senator Murkowski. Well, I understand that, but it seems to 
me that we've got an issue here where we're not certain. I 
mean, the Administrator was not able to tell me with certainty 
whether or not we consider these dispersants as pollutants.
    If they get into that food chain, at whatever level, are we 
testing for this? It sounds like, at this point in time, no. 
We're looking for the oil products on the fish. That's one 
thing, most certainly, but it would seem to me that, as we do 
the research on the effectiveness of these dispersants and the 
tradeoff, you have to consider the impact to our fisheries, to 
marine culture as a whole when we're looking at this.
    And I want to be able to give a level of assurance to 
people that whether you are eating wild Alaska salmon from 
Prince William Sound or whether you're taking it from the gulf, 
that the dispersants have not had an impact on the safety of 
that.
    And so if we are not testing for that, I would certainly 
hope that we would be doing that now, yesterday. That is 
something, again, a level of assurance that we need to be able 
to provide the consumer and give them that certainty that these 
dispersants--even though the purpose of them is to disperse the 
oil quickly, if we've dispersed the oil, but we've replaced it 
with another substance that has toxicity levels that impact 
that seafood, that's something that we all need to be concerned 
about, Administrator.
    Ms. Jackson. Thank you, Senator. I did want to follow up on 
your point, because, you're right, what we have done is we've 
shared the formulations of the dispersant. Although they're 
confidential business information, the manufacturer has made 
sure we share that with FDA and NOAA, as well as the State of 
Louisiana and other States who've asked for it, so that they 
can look at their own testing.
    We're testing water and sediment. But one other thing we've 
done is look at the bio-accumulation potential of all of the 
constituents that are in the dispersant. So dispersants are--
the vast volume of it is actually oil--petroleum. That's 
actually--it's in a petroleum base, and then you have other 
chemicals added in. The other chemicals--so that's why 
pollutant is hard, but there are chemicals in there, obviously, 
and they can pollute if they're in high enough concentrations. 
They don't stick around, by the looks of what we've done.
    Now, those are not field studies. Those are looking at 
bioaccumulation potential through peer-reviewed modeling. And 
the thing that sticks around is the oil.
    So it's why certainly one of the things I looked at in the 
decisionmaking process of whether to take dispersants off the 
table entirely, rather than use them in moderation, was are 
they worse. Is the cure worse than the disease?
    They are not. They are much less toxic and the constituents 
that are added to them are not nearly as bad as the oil.
    So I think--not getting into seafood safety--one of the 
reasons that I've seen NOAA and FDA say they want to first make 
sure there's no oil there is because the constituent in the 
dispersant that's most likely to stick around would be the same 
stuff that's in the crude itself.
    Is that fair or----
    Dr. Robinson. That's fair.
    Senator Murkowski. And I appreciate that explanation.
    Again, I think what it's going to get down to--and this is 
going to be critical for the economic recovery in the gulf, 
where you've got shrimpers and oystermen and people who rely on 
seafood for their industry--those fish, those shrimp may be 
absolutely perfectly safe, but as long as the public believes 
that they have been tainted, that market does not come back.
    Those shrimpers may be out. They're in their boats. They're 
on the water. They're collecting their shrimp and no one's 
going to buy them.
    And so we've got to be working together then, if, in fact, 
we've demonstrated that there is clearly that level of safety. 
How do we market this? How do we give that level of consumer 
assurance? And I think this is where we need to rely on NOAA. 
We need to rely on the FDA, and they need to be able to come 
out and unequivocally state things are safe. But it's going to 
impact all of our seafood markets around the country.
    And so if, in fact, we've determined that it is safe and 
that it is risk free, we need to get that word out and we need 
you to help us make that case.
    Dr. Robinson. Yes, Senator, we are----
    Senator Mikulski. Senator Murkowski, the vote is on.
    Senator Murkowski, we want to work with you on this. We 
share your concern, because we are a seafood-dependent State. 
It's important to our business people, our restaurants, people 
who sell seafood, people who are the wholesale dealers. This is 
big business. It's big business, but it's small business that 
does it, you know, wholesale seafood processing.
    So this doesn't have to be the first hearing, because once 
we have the validation of our science, we're going to talk to 
Secretary Locke. If the Commerce Department can spend money to 
improve exports, we can spend money to help our brothers and 
sisters in the gulf and all of us who are seafood-dependent for 
our economy to ensure that.
    So we're going to do this, and let's all work together. 
Let's have a working group to do this.
    I'm going to temporarily recess this hearing, so that we 
can go vote. I'm going to excuse the administrative witnesses. 
I know you're heading to the gulf, madam administrator.
    Before I recess, I want to read a question from Senator 
Shelby. He is quite concerned about hurricanes and hurricane 
preparation. He's concerned that with what is going on in the 
gulf, any reaction to the hurricane in preparation will have to 
address booms, the anchors holding the booms, cleanup crews, et 
cetera. And if oil dispersants wash ashore, what will that be 
in impact?
    I'm going to read the question, share it with you, and I 
think, in the interest of Senator Shelby, would like that 
answer in writing for him, which is----
    Can you tell us the status of the emergency plan for the 
gulf if a hurricane hits? When does the agency plan to advise 
the local communities on what they need to do? They haven't 
heard anything.
    Since contamination could exist in the surge waters, what 
agencies will be on site to make the call for the safety of 
residents and property owners and people in the seafood 
industry?
    You call them fishermen. We call them watermen. Whatever we 
do, we call them working Americans.
    And the hurricane surge or tidal waters, we need to know 
what's going to be the cleanup of water and oil and the related 
damage.
    So we want you to have this question in writing. I'll ask 
my staff to share it.
    Senator Shelby wanted so much to be here, and he might be 
able to come back for the second half.
    We're going to recess this. We've got homework for you.
    But I want to say something about the worker bees in the 
gulf. Having been there, I was impressed at how hard everybody 
was working and how--whether it was the NOAA people, Fish and 
Wildlife Service, the EPA, people on the ground and so on. So I 
want to say hats off to our Federal response and working with 
the community.
    But I think we, in Washington, have to really pick it up, 
and I think this Unified Command has got to get a little bit 
more juice. I really do.
    I am distressed about the changing admirals on the scene. 
Okay? Admiral Allen has served the Nation with distinction. 
He's the Unified Command commander, but the admiral on the 
ground's got to be on the ground or on the water, and that's a 
separate topic. We'll take that up with the President.
    But, right now, we need you. You're operational in one 
sense, but you are the science. You are the science of the 
United States of America, and they're counting on you. We're 
counting on you. So we look forward to it, as we get ready to 
mark up our bill next week. That's why we need these lists.
    So, you know, OMB can vet and this one can cogitate and 
science advisors can review, but, as the Administrator of EPA 
and to Dr. Lubchenco, through you, Dr. Robinson, I am asking 
for those lists, and we don't have time for a lot of in-house, 
bureaucratic vetting, scurrying around. Okay? We have a sense 
of urgency. And I know you do, too, but sometimes our own 
processes get in our way.
    And so this subcommittee is temporarily recessed. I'm going 
to go vote, come back. Hopefully, other members will. And, at 
that time, we're going to take testimony from the Louisiana 
Bucket Brigade and the Environmental Working Group to get the 
view from the NGOs.
    Thank you, and I thank our executive branch witnesses for 
their diligence in this matter. We got a lot to do.
    Thank you very much and I look forward to further 
conversations.
    The subcommittee will reconvene, and we hope that Senator 
Shelby will join us. The cloture has now been invoked and he 
might have to stay on the floor. But he wanted us to know of 
his very keen interest. His staff will be preparing memos on 
this. Of course, we have a public record on the hearing.
    I want to welcome to the table those NGOs that have been 
active in the gulf area itself--Anne Rolfes, the founding 
mother of the Louisiana Bucket Brigade, a grassroots 
organization empowering citizens in the gulf about their health 
and the environment; and Ken Cook, who is very well known to 
us, the president of the Environmental Working Group, which is 
a consortium of the major environmental organizations. Mr. Cook 
is the president of that, and it focuses on public health in 
the environment.
    And one might say, well, what's Commerce, Justice doing on 
public health? Well, we think water quality, the impact on 
marine life and seafood and what these dispersants mean to the 
people who are working at the cleanup or who are going to live 
in the gulf the rest of their lives, and we don't want a gulf 
war syndrome.
    And I'm really hot about this, and that's why I said to our 
colleagues from the executive branch, urgency. Let's go to the 
edge of our chair, and we need to know more.
    So before I ask you two to speak, I'm going ask unanimous 
consent that I enter into the record the testimony of Dr. 
Robert Shipp, the chairman of the Department of Marine Sciences 
at the University of South Alabama, who also chaired the Gulf 
of Mexico Fishery Management Council.
    And he shared with the subcommittee that he was adamantly 
against using the dispersants in this catastrophe, because he 
is concerned about toxicity and really if they have any 
efficacy of purpose. He submitted a very crisp testimony. We're 
going to ask the good doctor to submit it.
    Dr. Shipp is not testifying at the request of a Democratic 
liberal trying to make a point. This came from Senator Shelby, 
because he wants all views on the table. And we want the best 
science to protect our people and their lives and their 
livelihood.
    So I ask unanimous consent that that goes into the record.
    [The statement follows:]
  Prepared Statement of Robert Shipp, Chairman, Department of Marine 
Sciences, University of South Alabama, Chairman, Gulf of Mexico Fishery 
                           Management Council
    My name is Robert Shipp, I am chairman of the Department of Marine 
Sciences at the University of South Alabama, and I also chair the Gulf 
of Mexico Fishery Management Council.
    I want to provide comment on the use of dispersants related to the 
Deep Horizon oil spill.
    I am adamantly against the use of dispersants for this catastrophe. 
I'll try to present the rationale for my concerns briefly.
    As an overview, oil on the surface can be burned or skimmed. Many 
components will evaporate relatively harmlessly to the atmosphere. 
Booms are only effective in protecting against floating oil. Oil below 
the surface, in the water column, will likely have devastating but 
unknown impacts on the marine ecosystem.
    I see two major issues regarding the use of dispersants. The first 
is their toxicity and the second their purpose.
    The toxicity issue seems to raise the most rancor among opponents. 
And this is also the issue about which very little is known. The recent 
reports regarding toxicity (e.g. June 30: ``EPA releases first round of 
toxicity testing data for eight oil dispersants'') stress relative 
toxicity. These reports compare different dispersants, including 
COREXIT 9500 (the one in use) with various other dispersants. Findings 
are that some are more toxic to finfishes, others to invertebrates such 
as mysid shrimp. Other findings are that acting alone they may or may 
not be more toxic than when in conjunction with oil. And they seem to 
be less toxic than oil.
    This appears to me to be a red herring. They are toxic! Relative 
toxicity is irrelevant. But what is totally unknown but of grave 
concern is the toxicity toward fragile life stages of marine organisms. 
Most of these have especially delicate respiratory apparatuses, and the 
toxic nature of dispersants is probably most lethal to these. Testing 
done on hearty adult minnows, and on their endocrine system, tells us 
absolutely nothing about impact on the fragile gills of larval fishes 
or invertebrates.
    So that brings us to the question of purpose. Why use dispersants? 
The two principal reasons are: (1) they break down fresh oil to smaller 
particles to speed up bacterial degradation into less toxic components, 
and (2) by suspending oil in the water column, the amount of oil 
reaching critical estuarine and surface habitats is reduced.
    Let's address each. The breakdown into smaller particles is true, 
and these are likely to be degraded more rapidly. That is what we know. 
What we don't know is how rapidly this occurs, what role temperature 
plays, and what the final end product will be. We do know that the 
degradation requires oxygen, and this results in creation of 
potentially hypoxic areas. These are most likely in shallow areas where 
the temperatures are higher. At depths, where much of the dispersants 
are applied, the process will be much slower and will require less 
oxygen in the short term. And since the oil is comprised of a complex 
cocktail of different components, ultimate breakdown products are 
unknown.
    But it's the suspension of the oil in the water column that is of 
greatest concern. The argument that suspension reduces the likelihood 
of the oil reaching fragile coastal ecosystems would be valid were this 
a limited spill. But this is of such massive proportions that those 
benefits are trumped, and the coastal habitats are already overwhelmed, 
as are the offshore floating habitats like Sargassum communities. In 
addition, to a limited degree, booms can protect coastal habitats from 
floating oil. Oil in the water column passes beneath booms, moving 
directly toward shorelines.
    In the water column, when marine organisms encounter the oil 
droplets, the effects can be devastating. For example, many marine 
organisms are filter feeders. They strain water as it passes through 
their filtering organs, such as gills. But rather than food items, they 
collect oil particles, which if in high enough concentrations, is 
fatal.
    As an example, anchovies swim through the water with their mouths 
agape, collecting food on the fine filaments of their gills. Recently 
at Ft. Morgan, Alabama, where oil in the water column was evident, the 
beach was littered with dead anchovies. While we don't know the direct 
cause, this doesn't occur during normal ecological cycles.
    Vast clouds of organisms in the oceans make nocturnal migrations to 
the surface, then descend to the depths with daylight. These are 
comprised of myriads of species, including larval forms, barely visible 
crustaceans, and a plethora of other species. Wherever there are plumes 
of oil, regardless of the concentration, these organisms will pass 
through. What the impact is, one can only surmise, but it isn't likely 
beneficial to the ecosystem.
    Eventually, oil in the water column will settle on substrate, 
regardless of the degree of degradation. This, along with dispersant 
remnants, will enter the food web. The ultimate fate in the higher 
trophic (feeding) levels is unknown.
    To re-emphasize my earlier comments: oil on the surface can be 
skimmed or burned, and the volatile components dissipate naturally. 
Reason suggests that it should remain on the surface. Oil in the water 
column has the potential for massive negative impacts on marine 
organisms, the extent and duration of which are unknown, but which we 
will have to experience and measure in the years to come.

    Senator Mikulski. Now, I'd like to hear from you first, Mr. 
Cook, and then Ms. Rolfes from the Louisiana Bucket Brigade. 
One of the things I'm going to ask is how did you get that 
nifty title?
    But, Mr. Cook, why don't you proceed and share with us your 
views? You know the purpose of the hearing.
    Mr. Cook. Yes, ma'am.
    Senator Mikulski. You know, so--
STATEMENT OF KENNETH A. COOK, PRESIDENT, ENVIRONMENTAL 
            WORKING GROUP
    Mr. Cook. Madam Chairwoman, thank you very much for 
convening this hearing, and I want to thank the members of the 
subcommittee.
    We would like to submit our full written testimony for the 
record, and I'll summarize it very succinctly, I hope, and 
briefly, here.
    From the moment on April 20 that the blowout preventer of 
the Deepwater Horizon failed, killing 11 workers and sinking, 
we have been engaged, as you put it so well in your statement, 
Madam Chairwoman, in a scientific experiment. No good options. 
Not much good news.
    When I heard today that the little bugs that like to eat 
oil are thriving in the gulf, maybe that's the one bit of good 
news, thank goodness something's thriving there now.
    But we basically have entered into this with a complete 
lack of preparedness.
    You remember, Madam Chairwoman, at the very beginning of 
this discussion, when it was suggested that it might be months 
before this problem was solved, that was newsworthy. The 
American people just assumed we were prepared to shut this 
thing down.
    Now, today, as the science experiment is underway, we're 
focusing on one aspect of this, which is the dispersants. And 
my staff of scientists, like many others have been trying to 
figure out what exactly is going on at this stage in the 
experiment. And we don't have very good answers, just like for 
all their good efforts, you didn't get very good answers, to 
me, today from our first panel.
    And the reason is very simple: We didn't start by asking 
the right questions in a timely way, so that we would have any 
answers by the time we reached this point.
    This is an unnatural catastrophe. It's made by us. We 
didn't plan for it, and, as a consequence, we don't have basic 
answers.
    The kinds of issues that came up this morning are the kinds 
of issues we face constantly with chemicals. And let me go 
through them, because they're so relevant here and relevant in 
particular to what Senator Lautenberg was talking about this 
morning.
    First, we hear that we can't tell you very much about them 
because of confidential business information and limitations of 
the law, the Toxic Substances Control Act.
    Then we hear that there's no evidence of harm. We hear that 
sometimes from the Government. We certainly hear it from the 
company, no evidence of human harm from the use of these 
chemicals.
    Then we hear its safe, when the pressure starts building.
    Then we hear we're concerned.
    Then it shifts to, we're evaluating the chemical. We're 
looking at its safety.
    And then, finally, based on our review, we hear, as we 
heard this time, we're shifting to a safer alternative.
    So it's exactly the backwards way you would want to do 
this. You would want to have done the research ahead of time to 
know what the very safest alternative was.
    Then, as a crisis unfolded like this, important questions 
like: Is it different with regard to safety and the environment 
when there's a larger volume? We could have had at least some 
footing on which to answer that, but we don't.
    The first point to be made is that under our current Toxic 
Substances Control Act, most of the information, rudimentary 
information we would have wanted about what this chemical is, 
was protected as confidential business information from the get 
go.
    We know that one of the compounds that was substituted and 
used after the initial compound was withdrawn was put in place 
because of safety concerns about the original compound that 
emerged during the Exxon Valdez incident, where workers were 
clearly affected by a toxic chemical that was contained in the 
dispersant.
    We also know that some industry and Government spokespeople 
are trying to reassure us that this chemical is really no 
different than some of the chemicals we find in everyday 
detergents and other consumer products. Unfortunately, we don't 
have a safety system that assesses those chemicals in those 
applications either.
    We know that this is the first time we're using this 
material at great depths, and we heard today that there's 
essentially no information about efficacy and no information 
about safety to the marine organisms or to workers when it's 
used in that fashion. The Government and the oil industry long 
ago should have made sure that we had these answers.
    I think the only thing that might have focused BP's mind, 
and the other contractors down there, at the start of this 
incident, would have been: Would you have given us these 
answers if you knew that your company, its future was at stake 
if you didn't give us those answers? That's, I think, what it 
might have taken for a wake up call.
    We're recommending in our testimony additional money for 
research. Obviously, that has to be done yesterday from both 
EPA and NOAA. We need that protocol to understand how to find 
and whether it's occurring in game fish and commercial fish, if 
these dispersants are showing up, what the impact might be and 
rudimentary questions like that.

                           PREPARED STATEMENT

    But in this unnatural catastrophe, Madam Chairwoman, I am 
forced to conclude, after we've reviewed as much evidence as is 
in the public domain--and a lot of it is not--that we walked 
into this almost completely blind, almost completely unprepared 
to understand the impact of the use of these dispersants on 
human beings, the marine environment and the long-term health 
of the gulf and beyond.
    Thank you, Madam Chairwoman.
    [The statement follows:]
                 Prepared Statement of Kenneth A. Cook
    Madam Chair and distinguished members of the subcommittee: My name 
is Kenneth A. Cook, and I am the President and Co-founder of 
Environmental Working Group (EWG), a nonprofit research and advocacy 
organization based here in Washington, DC with offices in Ames, Iowa, 
and Oakland, California. I thank the members of the subcommittee for 
holding this important hearing and for the opportunity to testify. My 
testimony focuses on the use of oil dispersants.
    BP has dumped more than 1.8 million gallons of chemical oil 
dispersants into the Gulf of Mexico near the site of the undersea 
gusher caused by the April 20 blowout that set fire to the Deepwater 
Horizon drilling rig and killed 11 workers. Since the explosion, our 
team at Environmental Working Group has been striving, along with many 
other experts and journalists, to understand what those chemicals are 
and how they behave. This much is well accepted: dispersants do not 
make all that oil vanish. As the science journal Nature reported, 
``they help large globs of oil `disperse' into smaller pieces--hence 
their name--which are easier for sea-living microbes to break down.'' 
(Cressey 2010).
    According to a 2005 National Research Council of the National 
Academies of Sciences Report entitled ``Oil Spill Dispersants: Efficacy 
and Effects,'' we know far too little about the fate of dispersed oil 
in the ocean. (NRC 2005). Many experts assume that chemical dispersion 
will dramatically reduce the impact on seabirds and aquatic mammals, 
but there have been few studies since 1989 to validate this assumption. 
(NRC 2005). In the case of coral, we do know that mixtures of 
dispersants and oil are more toxic to coral than oil alone. (NRC 2003). 
And, according to some marine toxicologists, fish and smaller marine 
organisms can mistake dispersed oil droplets for food. (Shaw 2100). 
Some dispersants build up in the tissue of creatures that ingest them, 
and they may cause internal bleeding in some marine life. (Shaw 2010). 
The National Oceanic and Atmospheric Administration (NOAA) has 
indicated that the dispersants in the gulf biodegrade within 5 to 7 
days, but, according to press accounts, Nalco's own studies show that 
it takes more than 28 days for them to break down. (Werau 2010).
    The important question is: Are these dispersants minimizing the 
damage--or making things worse?
    It is inexcusable that we do not know the answer and have turned 
the Gulf of Mexico into an enormous science experiment. After all, 
we've been dealing with oil spills from the moment we started pumping 
oil. According to the 2005 NRC report, 3 million gallons of oil and 
refined petroleum get spilled annually in and around U.S. waters, 
mostly in smaller batches. (NRC 2005).
    The particular dispersants going into the gulf have been around for 
decades. According to the NRC report, COREXIT EC9527A came on the 
market in the 1980s. COREXIT 9500 was introduced in the 1990s. Both are 
made by Nalco and have been approved by the Environmental Protection 
Agency and U.S. Coast Guard for spraying on the ocean surface. (NRC 
2005).
    On May 26, EPA asked BP to curtail its use of dispersants at the 
surface. Now, BP appears to be applying most of them a mile deep. (EPA 
2010)(Attachment A). It's our understanding that NOAA Administrator 
Jane Lubchenco has conceded that dispersants have never before been 
used in deep water spills, and has said that we will learn much from 
this incident that will inform their use in the future.
    No doubt we can and must learn from the gulf disaster, but what do 
we know now?
               what we know about dispersants through epa
    First of all, there's a lot the public is not permitted to know 
about these concoctions because of our broken Federal toxics law, the 
Toxic Substances Control Act of 1976 (TSCA). This failed law makes it 
hard for EPA to release health and safety data to the public on 
chemicals and provides way too much secrecy for chemical companies. We 
commend EPA Administrator Lisa Jackson for releasing the full list of 
chemical ingredients of COREXIT EC9527A, sometimes called COREXIT 9527 
and 9500. We think the public needs to know what, exactly, a chemical 
is and understand the impact of its use on human and environmental 
health before a company, or the Government, decides to dump millions of 
gallons of it into the sea. That didn't happen.
    COREXIT 9527 contains three chemicals considered hazardous: 2-
butoxyethanol; organic sulfonic acid salt; and propylene glycol. Nalco, 
which makes these dispersants, has conceded that with respect to 
COREXIT 9527, ``No toxicity studies have been conducted on this 
product.'' It also says: ``Based on our hazard characterization, the 
potential environmental hazard is: Moderate. Based on our recommended 
product application and the product's characteristics, the potential 
environmental exposure is: Low.'' Just how the company has reached that 
conclusion isn't at all clear.
    We do know that breathing 2-butoxyethanol exposures or skin contact 
with it may irritate the nose and eyes and cause headache, a metallic 
taste in the mouth and vomiting. (ATSDR 1999). Tests can detect it in a 
person's blood and urine within 24 to 48 hours of exposure--before it 
breaks down and leaves the body. Animal studies have shown that high 
doses of 2-butoxyethanol can cause reproductive problems and minor 
birth defects and can destroy red blood cells. (ATSDR 1999).
    COREXIT 9500, the newer formulation, is made without 2-
butoxyethanol. According to the NRC report, Nalco developed COREXIT 
9500 because it discovered that ``prolonged exposure to COREXIT 9527 
caused adverse health effects in some responders. These effects were 
attributed to its glycol ether solvent (2-butoxyethanol).'' (NRC 2005).
    Paul Anastas, the head of EPA's Office of Research and Development, 
attributed the removal of 2-butoxyethanol to a newer generation of more 
``environmentally friendly'' dispersants (EPA 2010). Yet hundreds of 
household and school cleaners and other products contain the same 2-
butoxyethanol linked to adverse health effects. (HPD 2010).
    In the early days of the spill, EPA permitted BP to spray the older 
product, COREXIT 9527, until enough 9500 could be located. We still 
have many questions about COREXIT 9527. The New York Times reported 
just last week that BP has detected 2-butoxyethanol over safety limits 
set by the National Institute for Occupational Safety and Health 
(NIOSH) in more than 20 percent of gulf oil spill workers. (Schor 
2010). These exposures raise questions about the use of other cleaning 
agents containing this chemical in cleanup operations, potential 
longer-term air quality problems as a result of COREXIT 9527 and 
perhaps, BP's possible continued use of this substance.
    It's more than a little disquieting that the ``material safety data 
sheet'' for COREXIT 9500 actually warns: ``Do not contaminate surface 
water.'' Also, the document says, ``Component substances have a 
potential to bioconcentrate.''
    It doesn't help the situation that Nalco had earlier placed the 
ingredients in COREXIT 9500 under a cloak of ``confidential business 
information'' or CBI, which under current law barred EPA from releasing 
the details of its ingredients on the grounds that they would give away 
a valuable trade secret to the company's competitors. But as the 
newswire Greenwire has reported, the mere listing of the ingredients 
didn't include one piece of potentially important information: how much 
of each one is in COREXIT 9500. It quoted Nalco spokesman Charlie Pajor 
as saying:

    ``Having the full ingredients out there is only part of the 
information that someone wanting to copy the product would need.''

    That was an interesting admission in light of the chemical 
industry's insistence that it needs the right to claim CBI, which keeps 
the public from learning the chemical identity of 17,000 chemicals on 
EPA's inventory, in order to protect manufacturers' trade secrets. It 
makes you wonder whether disclosure of these chemical identities, which 
is vitally important to cleanup workers in the gulf--and to emergency 
responders, research scientists and the public--is really such a threat 
to these companies' intellectual property and their profits.
    Environmental Working Group found a BP chart that listed EPA-
approved alternatives to COREXIT. Because of the draconian secrecy 
protections of TSCA, however, almost all the health and safety data 
were described as ``not known'' because ingredients were 
``confidential'' or ``proprietary.'' (Attachment B). As evidenced by 
this chart, confidentiality even stymied BP's attempt to evaluate 
alternatives. The company wrote on May 19: ``There may be only limited 
information on the constituents of the dispersants, since the 
dispersants typically contain proprietary substances whose identities 
are not publicly available.'' (BP 2010).
    Given our work on toxic chemicals, we were not surprised that 
critical information on the vast majority of dispersant alternatives 
was secret under TSCA. A recent EWG investigation found that industry 
has placed ``confidential business information'' (CBI) claims on the 
identity of 13,596 chemicals introduced since 1976. That's nearly two-
thirds of the 20,403 chemicals that have been brought onto the market 
in the past 34 years. A significant number of these secret chemicals 
are used every day in consumer products, including artists' supplies, 
plastic products, fabrics and apparel, furniture and items intended for 
use by children. (EWG 2010).
    Some industry spokespeople and Government officials are trying to 
assure the public that dispersants are safe because they contain 
ingredients common in many household cleaners or cosmetics, such as 
lotions. But that's not a bit reassuring. The reality is that chemicals 
used in household cleaners, detergents, and lotions are not tested for 
safety before they are sold. The very chemical that prompted the shift 
from using COREXIT 9527 to COREXIT 9500 is still contained in the 
cleaning products sold for household and school use. All too often we 
do not have complete health and safety data. Even more disturbing is 
that many industrial chemicals are polluting people's bodies. EWG's 
studies have shown that even newborn babies are born pre-polluted by 
chemicals in everyday consumer products. (EWG 2009). The unfortunate 
reality is that just because it's in a household cleaner or detergent 
doesn't mean it is safe.
       what we know about dispersants and the spill through noaa
    NOAA's main role in the gulf disaster is to provide real-time 
scientific data and on-site testing of the efficacy and environmental 
impacts of dispersants. NOAA also supplies the Coast Guard and the 
teams applying the dispersants with information on the best places and 
methods to use them. (NOAA 2010).
    We are troubled that NOAA, as the agency charged with assessing the 
dispersants' use, has apparently said that the COREXIT formulas 
biodegrade within 5-7 days. These assertions seem to contradict Nalco's 
publicly reported statements. On May 25, Chicago Tribune reporter Julie 
Wernau wrote:

    ``According to Nalco, as part of the registration of COREXIT 9500 
for use in French water, the product's biodegradation was required to 
be measured by an independent laboratory, a test that is not required 
by the EPA. COREXIT passed the test in France, Nalco said, with 78 
percent of the product biodegrading over 28 days.''

    NOAA has done some tests on dispersed oil plumes in the vicinity of 
the blowout and has found underwater plumes of dispersed oil and 
dispersants 6 miles from the gushing oil well. University scientists, 
meanwhile, have discovered plumes of dispersed oil as far as 75 miles 
away. University researchers have also expressed concern about very low 
levels of dissolved oxygen in the seawater, but it appears that NOAA 
has not found troubling low levels of dissolved oxygen around the 
submerged oil. (Farenthold 2010). These discrepancies are confusing. 
It's still unclear to the public what NOAA's role is in tracking the 
dispersants as they drift in ocean currents. What if any, potential 
impacts or dead zones could be created by these underwater plumes? What 
is the possible effect of hurricanes or other weather patterns on the 
dispersed oil? Hurricane Alex disrupted the cleanup efforts even though 
it was hundreds of miles away. How is NOAA preparing the response team 
for hurricane season?
    Even more disconcerting are recent press accounts that NOAA is not 
sharing its data. BP can access the monitoring data collected from the 
six NOAA research vessels monitoring and testing in the gulf, but 
apparently the public cannot have access to the same data. We urge NOAA 
to release this important monitoring data immediately so that academic 
researchers and other independent experts can evaluate and the public 
can know the extent of the gulf disaster. (Froomkin 2010).
    It's been well established that until this mother-of-all-oil-
spills, EPA, NOAA and other Government agencies had not developed a 
thoroughly researched plan for managing this sort of crisis. Since 
spills are a constant threat, the Government and the oil industry 
should long ago have financed far more research into dispersants and 
how best to clean up oil spills. They should have developed other 
longer-term health and safety information. It is shocking that there 
appear to be no public long-term studies on health effects of the Exxon 
Valdez oil spill on workers or studies of its ecological impacts. This 
is a stunning gap in our knowledge and a lesson we should have learned 
from the past.
    At the moment, what we know about dispersants seems to be as murky 
as the gulf's troubled waters.
                             recommendatons
    In conclusion, the Federal Government must invest more resources 
into research on the impact of oil spills and dispersants on the marine 
environment and on public health. After 3 decades, we are still in the 
dark about the precise make-up and behavior of these products and other 
chemical agents that are used in huge quantities. We commend 
Administrator Jackson's call for TSCA reform and the steps that she has 
taken to address abuses of confidential business information claims and 
to release more information on the composition of dispersants. To 
protect our children's health, workers' health and our oceans, however, 
Congress must give EPA strong authority to shift the burden of proof to 
industry to show a chemical is safe before it goes on the market. EPA 
must have express authority to require more transparency about chemical 
health and safety data from companies. EPA must do more to promote 
transparency in the cleanup process and assessment of the gulf 
disaster.
    NOAA needs more funding for research on the behavior of underwater 
plumes of dispersants and how deep sea application may affect ocean 
ecosystems. If NOAA is indeed holding back on release of important data 
on the extent of the spill, the location of dispersed oil or potential 
environmental impacts, it should release this information so that 
academics, university researchers, health organizations and the general 
public can form independent conclusions about the human and 
environmental consequences of the gulf disaster. It is crucial to act 
quickly and collect as much information as possible about dispersants, 
including how dispersed oil plumes move in deep sea and where they end 
up. We cannot continue to depend on disasters to highlight our 
regulatory failings and scientific naivety.
    Thank you for your time. I welcome the opportunity to answer any 
questions you may have.
REFERENCES
    ATSDR. 1999. ToxFAQs for 2-Butoxyethanol and 2-Butoxyethanol 
Acetate. Available at: http://www.atsdr.cdc.gov/tfacts118.html.
    BP 2010. BP's response to EPA's dispersant directive (PDF) May 22, 
2010. http://www.epa.gov/bpspill/dispersants/5-21bp-response.pdf.
    Cressey, Daniel. 2010. The Science of Dispersants. Nature News. May 
12, 2010. Available at: http://www.nature.com/news/2010/100512/full/
news.2010.237.html?s=news_rss.
    EPA 2010. EPA and NOAA Press Conference Call on Dispersant Use and 
Approval. May 12, 2010. Available at: http://www.epa.gov/bpspill/
dispersants/may12transcript-final.pdf.
    Environmental Working Group. 2010. Off the Books: Industry's Secret 
Chemicals. Available at: http://www.ewg.org/chemicalindustryexposed/
topsecretchemicals.
    Environmental Working Group. 2009. Pollution in People: Cord Blood 
Contaminants in Minority Newborns. Available at: http://www.ewg.org/
files/2009-Minority-Cord-Blood-Report.pdf.
    Farhrenthold, David A. 2010. A wounded Gulf of Mexico, and an 
elusive prognosis. Washington Post, July 5, 2010.
    Froomkin, Dan. 2010. ``NOAA Hoarding Key Data on Spill Damage,'' 
Huffington Post, July 13, 2010. Available at: http://
www.huffingtonpost.com/2010/07/13/noaa-hoarding-key-data-
on_n_645031.html.
    HPD 2010. Household Products Database of the National Library of 
Medicine. Available at: http://householdproducts.nlm.nih.gov/. Accessed 
on: July 14, 2010.
    NOAA 2010. NOAA Emergency response Web site on dispersants. http://
response.restoration.noaa.gov/dispersantstour. Accessed on: July 13, 
2010.
    NRC 2005. National Research Council, Oil Spill Dispersants: 
Efficacy and Effects. The National Academies Press. 2005. Available at: 
http://www.nap.edu/catalog.php?record_id=1128.
    NRC 2003. National Research Council, Oil in the Sea III: Inputs, 
Fates, and Effects. The National Academies Press. 2003. Available at: 
http://www.nap.edu/catalog.php?record_id=10388.
    Nyman, J.A., Public Law Klerks, and S. Bhattacharyya. 2007. Effects 
of chemical additives on hydrocarbon disappearance and biodegradation 
in freshwater microcosms. Environmental Pollution 149:227-238. 
Available at: http://www.rnr.lsu.edu/nyman/OilSpillPublications.htm.
    Schor, Elana. 2010. New BP Data Show 20 percent of Gulf Spill 
Responders Exposed to Chemical That Sickened Valdez Workers. New York 
Times, July 9, 2010. Available at: http://www.nytimes.com/gwire/2010/
07/09/09greenwire-new-bp-data-show-20-of-gulf-spill-responders-e-
82494.html.
    Shaw, Susan. 2010. Swimming through the Spill . . . The New York 
Times, May 30, 2010. Available at: http://www.nytimes.com/2010/05/30/
opinion/30shaw.html?ref=opinion And what effects could there be as the 
dispersants move up the food chain?
    Wernau, Julie. 2010. Naperville's chemical company under fire in 
the Gulf. Chicago Tribune, May 25, 2010. Available at: http://
mobile.chicagotribune.com/inf/infomo?view=business 
_article&feed:a=chi_trib_1min&feed:c=business&feed:i=53951482&nopaging=1

                       attachment a--bp timeline
OIL SPILL TIMELINE & DISPERSANT USE
    April 20.--Deepwater Horizon drilling rig explosion occurs. NOAA 
mobilizes to provide trajectory support, weather and biological 
response services.
    April 22.--100,000 gallons of dispersants are pre-positioned and 
pre-approved for use by EPA; Coast Guard states no leak is apparent. 
www.deepwaterhorizonresponse.com
    April 24.--First oil leaks discovered.
    April 29.--BP reports that 76,104 gallons of dispersant have been 
deployed. http://www.bp.com/
genericarticle.do?categoryId=2012968&contentId=7061663
    April 30.--Response crews use nearly 3,000 gallons of subsea 
dispersants for testing; BP and NOAA begins to evaluate these tests to 
determine feasibility of continued use. http://
www.deepwaterhorizonresponse.com
    May 3.--Shares of Nalco jump 18 percent after it is revealed BP 
will use its dispersant products, particularly COREXIT, for cleanup. 
http://chicagobreakingbusiness.com/2010/05/nalco-holdings-shares-rise-
after-bp-cleanup-news.html
    May 15.--Coast Guard and EPA authorize BP to use dispersants 
underwater. http://www.deepwaterhorizonresponse.com/go/doc/2931/551271/
    May 20.--EPA issues directive requiring BP to identify a less toxic 
and more effective dispersant from the list of EPA authorized 
dispersants within 24 hours. http://yosemite.epa.gov/opa/admpress.nsf/
d0cf6618525a9efb85257359003fb69d/
0897f55bc6d9a3ba852577290067f67f!OpenDocument
    May 22.--BP's response to EPA's dispersants directive released. BP 
claims some sections of response contain CBI and cannot be made public. 
http://www.deepwaterhorizonresponse.com/go/doc/2931/559595/
    May 26.--EPA directs BP to significantly scale back overall use of 
dispersants. At this point, more than 700,000 gallons of chemicals had 
been applied to combat the spill. http://www.epa.gov/bpspill/
dispersants.htmlhttp://www.nytimes.com/2010/05/25/science/earth/
25disperse.html?hpw
  --UNH Coastal Response Research Center, NOAA, EPA & Coast Guard 
        convene science meeting to discuss unprecedented dispersant use 
        and effects of disbursed oil. http://www.epa.gov/bpspill/
        dispersants/science-meeting.pdf
    June 8.--EPA releases on its Web site the chemical components of 
COREXIT 9500 and 9527, two main dispersants used by BPA in the Gulf of 
Mexico. http://www.nytimes.com/gwire/2010/06/09/09greenwire-
ingredients-of-controversial-dispersants-used-42891.html
    June 24.--NYT reports that BP has applied 272,000 gallons of 
surface dispersant and 342,000 gallons of sub-surface dispersant since 
EPA's May 26 directive. http://www.nytimes.com/gwire/2010/06/24/
24greenwire-bp-continues-to-use-surface-dispersants-in-gul-80293.html
    June 30.--EPA Releases First Round Of Toxicity Testing Data for 
Eight Oil Dispersants and states ``all of the dispersants are roughly 
equal in toxicity, and generally less toxic than oil.'' http://
www.epa.gov/bpspill/dispersants-testing.html
    July 13.--Surface dispersant used: more than 1.07 million gallons; 
Subsea dispersant used: more than 735,000 gallons; Total dispersant 
used: more than 1.8 million gallons. http://
www.deepwaterhorizonresponse.com/go/doc/2931/778111/

                                                                      ATTACHMENT B.--BP'S ALTERNATIVE DISPERSANT ASSESSMENT
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                     Dispersit SPC
       Evaluation Criteria              Comment        COREXIT  EC9500A   COREXIT  EC9527A        JD-2000             1000TM           Nokomis 3-F4         Sea Brat #4        Saf-Ron Gold
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
E. Persistence, Bioaccumulation   Based on            Proprietary Mix-    Proprietary Mix-    Proprietary Mix-    Proprietary Mix-    Formulations may    Proprietary Mix-    Proprietary Mix-
 and Chronic Effects and           Information         ture.               ture.               ture.               ture.               contain             ture.               ture.
 Endocrine Disruption:             Provided by                                                                                         nonylphenol
 Constituents.                     Manufacturer.                                                                                       polyethylene
                                                                                                                                       ethoxylates
                                                                                                                                       (BPE), which
                                                                                                                                       biodegrade to
                                                                                                                                       nonylphenol, a
                                                                                                                                       potential
                                                                                                                                       endocrine
                                                                                                                                       disruptor. NPE
                                                                                                                                       use restricted in
                                                                                                                                       EU, under review
                                                                                                                                       in US.
G.1. Behavior in the              Based on            Petroleum based     2-butoxyethanol     Proprietary         Water based         Water and           Water and           Proprietary
 Environment: Solvent.             Information         solvent with        and propylene       Mixture,            containing          propylene glycol.   propylene glycol.   Mixture,
                                   Provided by         propylene glycol.   glycol.             insufficient        emulsifiers,                                                insufficient
                                   Manufacturer.                                               information.        dispersants, and                                            information.
                                                                                                                   water dilutable
                                                                                                                   coupling solvent.
G.1. Behavior in the              Based on            Manufacture         Manufacture         Proprietary         Manufacture         Nonylphenol,        MSDS describes      Proprietary
 Environment: Biodegradation.      Information         describes as        describes as        Mixture,            describes as        degradation         product as highly   Mixture,
                                   Provided by         biodegradable,      biodegradable,      insufficient        ``completely        product of NPE,     biodegradable.      insufficient
                                   Manufacturer.       majority of         majority of         information.        biodegradable       potentially                             information.
                                                       components          components                              surfactants''--Pr   resistant to
                                                       expected to         expected to                             oprietary Mixture   biodegradation
                                                       readily             readily                                 Currently           during subsurface
                                                       biodegrade.         biodegrade.                             Insufficient        application--Prop
                                                                                                                   Composition         rietary Mixture
                                                                                                                   Information to      Currently
                                                                                                                   Assess.             Insufficient
                                                                                                                                       Composition
                                                                                                                                       Information to
                                                                                                                                       Assess.
G.1. Behavior in the              Based on            Manufacture         Manufacture         Proprietary         Proprietary         Proprietary         Proprietary         Proprietary
 Environment: Potential for        Information         reports component   reports component   Mixture,            Mixture,            Mixture,            Mixture,            Mixture,
 Bioaccumulation.                  Provided by         substances have a   substances have a   insufficient        insufficient        insufficient        insufficient        insufficient
                                   Manufacturer.       potential to        low potential to    information.        information.        information.        information.        information.
                                                       bioaccumulate.      bioconcentrate.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Chart reference: BP 2010. BP's response to EPA's dispersant directive (PDF) May 22, 2010. http://www.epa.gov/bpspill/dispersants/5-21bp-response.pdf.


    Senator Mikulski. That was very powerful, and it goes to 
what I asked our executive branch, more of a sense of urgency 
here. Pick it up.
    We'll come back to some questions.
    Senator Mikulski. Ms. Rolfes.
STATEMENT OF ANNE ROLFES, FOUNDING DIRECTOR, LOUISIANA 
            BUCKET BRIGADE
    Ms. Rolfes. Thank you very much for having me.
    A few minutes before leaving my office yesterday in New 
Orleans to travel here, I received an e-mail from the Louisiana 
Department of Health and Hospitals, and it included an updated 
fact sheet for workers who are cleaning up the oil spill.
    And on this fact sheet is a list of hazards about which 
they should be aware, and I brought it with me today. And on 
this list is oil, heat, slips, trips and falls, trench foot, 
noise, heavy equipment, poisonous plants, spiders, mosquitoes 
and chiggers. And then, underneath mosquitoes and chiggers, it 
says to follow label directions carefully to avoid over-
exposure to repellant products.
    Now, what you might notice is not on this list is anything 
about dispersant. And this fact sheet, although it's 
distributed by the State, is, unfortunately, extremely 
representative of the information that we're getting--or rather 
not getting--on the ground along the gulf coast about 
dispersants.
    I have been in a number of forums in every gymnasium and 
community center in these small towns in Louisiana with Federal 
officials present, including EPA and NOAA, and they are all 
very well prepared to talk about heat exhaustion. There's a 
real focus on the heat. But no one is prepared to talk about 
dispersant, and yet there is information available.
    A report earlier this month came out that says that BP 
cleanup workers are absolutely being exposed, 20 percent of 
them, to 2-Butoxyethenol, a chemical in dispersant that is 
absolutely known to have made Exxon Valdez workers sick, and 
yet there is no fact sheet about this.
    NOAA has no fact sheet warning workers. EPA has no fact 
sheet. And there's something wrong when we have no 
information--solid information--that is not being transferred 
about dispersant health.
    Senator Mikulski. You want to repeat that again? I just 
want to be sure I heard it. I was----
    Ms. Rolfes. Yes. There is a report that came out this 
month, written by Elana Schor, that said that 20 percent of the 
BP oil-spill workers have been exposed to 2-Butoxyethenol, 
which is a chemical known to have made Exxon Valdez workers 
sick.
    There is no fact sheet that has been distributed about that 
from EPA or from NOAA. And, in my office, we were commenting 
that we're sure----
    Senator Mikulski. Health and Human Services [HHS] or the 
Department of Labor.
    Ms. Rolfes. Anybody. That's right, anybody.
    Senator Mikulski. Well, you know, we got the Occupational 
Safety and Health Administration [OSHA] and the surgeon 
general.
    Ms. Rolfes. Absolutely. And my question is why aren't there 
monitors on every single boat and in every single community for 
these dispersants.
    Senator Mikulski. We'll come back and have a discussion.
    Ms. Rolfes. But, in fact, there's little information being 
made available to the public from NOAA. I know groups that have 
been begging NOAA for information from May.
    And then, meanwhile, 2 days ago, at the Oil Spill 
Commission hearing in New Orleans, Mathy Stanislaus from EPA, 
said that the agency has just begun--those were his words--just 
begun testing for the combined effects of oil and dispersants.
    And, obviously, day 86 of this catastrophe just beginning 
to study that combined effect is really too little, too late.
    And so I come to you today with this landscape of a 
complete lack of information to regular people like me along 
the gulf with three recommendations.
    One is to increase the capacity of NOAA and EPA, and of 
OSHA and all of the agencies involved, to both monitor and test 
for dispersant, and then, equally important, to distribute this 
information in a timely and comprehensible fashion to the 
general public.
    NOAA is not the body seen as most knowledgeable about the 
plumes of dispersant in the water. And I think that's a real 
problem when it's non-profit agencies and universities who are 
seen to have the best science.
    And then, likewise, when Administrator Jackson asked BP to 
please look into the use of a different kind of dispersant, she 
was essentially blown off by BP.
    And so when I talk about increasing the capacity of the 
agencies, I mean potentially law changes as well, because BP 
was allowed to just essentially thumb its nose at the 
administrator of the EPA, and that's a problem.
    Another important recommendation that I have is to be 
really aware of BP's control of information.
    From reports, BP is able to get the NOAA information that 
the public is not able to get, and that's a problem. Also, 
there is BP security that is keeping people away from 
documenting the information.
    There are also BP emergency medical services, a BP EMS, and 
that is not widely known, that when oil-spill cleanup workers 
have a problem, they don't go to the State and they don't go to 
the private hospitals. They are seen by BP EMS, and we have a 
real concern about where that data is going, as well as what 
kind of diagnoses they're getting.
    Of course, I imagine that there's a lot of diagnosis of 
heat exhaustion, which may be true, but there's a real question 
about how likely a BP EMS is to talk about dispersants.
    They've also hired a notorious company called the Center 
for Toxicology and Environmental Health [CTEH]. After Katrina, 
this agency was actually gathering samples for EPA, and the 
company has really a rogue's gallery of clients in some of the 
worst environmental catastrophes in the world and has never 
found a problem that is worthy of protecting public health. So 
this is something that should be looked into, how much of EPA's 
testing is relying on CTEH.
    But, finally, I want to ask you--a final recommendation is 
to resist pressure to open fishing, which you will certainly 
get.
    In the paper yesterday, it said that the Department of Fish 
and Wildlife policy is aimed at--fishing closures is aimed at 
protecting public health, but frustration with the closures has 
been mounting in the recreational community.
    And you're going to get tremendous pressure from Louisiana 
to open up fishing, and I'm asking you to save us from 
ourselves.
    All of the protocols involve testing for oil and not for 
dispersants, and I don't believe that our Louisiana Department 
of Wildlife and Fisheries is accounting for the unseen plumes 
of dispersant in the ocean.
    I think that this problem of dispersant is a problem with 
our larger chemicals policy. It's a problem with chemicals 
policy that has now inflicted near chaos on our disaster 
response.

                           PREPARED STATEMENT

    We have a crystal ball. We know what happened with the 
rampant use of chemicals in the gulf war and, to some extent, 
in Exxon Valdez. We know the results aren't good, and so we're 
asking you to use all of your power as a Senator to protect us.
    [The statement follows:]
                   Prepared Statement of Anne Rolfes
    My name is Anne Rolfes and I am the Founding Director of the 
Louisiana Bucket Brigade, a non profit environmental health and justice 
organization. Since 1999 I have collaborated with communities impacted 
by the petrochemical industry, spending much of that time in 
neighborhoods right across the street from refineries. This time has 
given me insight into how the oil industry conducts itself in this 
region. I am also familiar with the State and Federal regulatory 
agencies vested with the responsibility to safeguard our health and our 
environment.
    In April 2010, 47 people were killed because of this Nation's 
reliance on fossil fuels. Seven workers at Tesoro Corp`s refinery in 
Washington State,\1\ 29 miners in West Virginia \2\ and 11 people on 
BP's Deepwater Horizon rig in the Gulf of Mexico.\3\ While the subject 
of this hearing is limited to dispersants used in the wake of the BP 
Oil Disaster, it is important to recognize the human costs of this 
country's addiction to fossil fuels. The tragic events of April 2010 
should be our pivot point from fossil fuels to renewable energy.
---------------------------------------------------------------------------
    \1\ Associated Press, ``Seventh Person Dies from Wash State 
Refinery Fire,'' April 24, 2010, http://www.kgw.com/news/national/
92006674.html.
    \2\ Urbina, Ian, ``No Survivors Found after West Virginia Mine 
Disaster,'' New York Times, April 9, 2010, http://www.nytimes.com/2010/
04/10/us/10westvirginia.html.
    \3\ Times Picayune, Meet the Eleven Men Who Died on the Deepwater 
Horizon Rig in the Gulf, May 1, 2010, http://www.nola.com/news/gulf-
oil-spill/index.ssf/2010/05/details_on_scene_as_deepwater.html.
---------------------------------------------------------------------------
    All of the information detailed here has been documented since 
April 20, 2010 during time spent in the impacted coastal communities of 
Louisiana. In some cases the press has documented the problem. I 
encourage Senators and their staff to go to the gulf coast, not as a 
Congressional entourage with VIP status, but as ordinary citizens 
looking for information. By being on the ground without fanfare, our 
representatives can learn the truth.
    Given the lack of information about dispersants, there should be no 
assurances of safety by any party, especially the EPA, NOAA, other 
Government bodies or BP. There is no scientific basis for such 
statements. I have seen a knee jerk response over the years to tell the 
public that they are safe. In the case of this terrible spill, no one 
has any information on which to base such claims that disperants are 
completely safe and so such claims should not be made.
    I am concerned about the effect the lack of information about 
dispersants has on NOAA's ability to track and test for them. How, for 
instance, is NOAA going to track dispersants through the currents and 
water column, especially below the surface? What long-term effects will 
these dispersants have on sea life and up the food chain? How can the 
Federal Government ask these questions when they can't even get and/or 
share basic safety information about the dispersants being used? What 
about the long-term health effects to the people being exposed to the 
dispersants?
                       application of dispersants
    Attached to this testimony are the three patents available for 
COREXIT. The recommended ratio of application is one part dispersant 
for every 12 parts oil. This ratio has not changed even if the patent 
name holder has.
    The following account comes from attendance at a community forum in 
Thibodaux, Louisiana on Thursday, July 8 by my coworker Callie 
Casstevens. These forums are now common in south Louisiana and 
presumably along the gulf coast. The forums are supposed to be 
information fairs, with tables representing Federal and State agencies 
as well as private contractors. What follows is an excerpt from Ms. 
Casstevens blog about the forum: \4\
---------------------------------------------------------------------------
    \4\ Casstevens, Callie, ``CTEH? Don't know them. Actually, we do 
use their results,'' July 11, 2010, Louisiana Bucket Brigade Blog, 
http://labucketbrigade.wordpress.com/.

    ``Moving to the third table, test tubes filled with dispersant were 
front and center, with small computers showing planes flying over the 
gulf dropping the dispersant. I pulled the patent out and asked, `The 
patent states the dispersant is supposed to be distributed 1 part for 
every 12 parts oil, but since we have never known how much oil has been 
coming out/spilling, how do you know you're appropriately applying it?' 
The woman laughed, and stated she would let her coworker handle the 
question. The man was from the UK, it was in fact his plane we were 
watching on the computer screen dropping the dispersant onto the 
ocean's surface. His name was Andrew Nicoll, the advocacy manager for 
the Oil Spill Response and East Asia Response Limited Company, (OSRL). 
He stated that they had special aerial measurements, taking into 
---------------------------------------------------------------------------
consideration the area/density and then applied it.''

    BP's estimate of the amount of oil released has been on the low end 
of the spectrum and is constantly changing. BP's Chief Operating 
Officer Doug Suttles has in fact, stated that understanding the flow 
rate does not matter.\5\ Since BP, then, has potentially no sound basis 
for understanding how much oil is leaking, how are they to apply the 
dispersant responsibly?
---------------------------------------------------------------------------
    \5\ Hammer, David, ``BP's Doug Suttles says company threw 
everything at gushing oil well,'' Times Picayune, June 25, 2010, http:/
/www.nola.com/news/gulf-oil-spill/index.ssf/2010/06/
bps_doug_suttles_says_company.html.
---------------------------------------------------------------------------
    Ms. Casstevens conversation continued. ``Curiosity led me to ask 
why the UK banned the dispersant. In response he said that it failed 
the LC 50 test for the shore. That led me to question why the UK shore 
is any different than our shore. He said, `It's not reaching your 
shore.' I then showed him pictures of COREXIT slime that lines the 
shores of many beaches in the south. He stated it was not COREXIT, 
simply sea foam. My last question to him was, `So, why is it used in 
the United States, is it because we have weak regulations?' He said, 
`Yes . . . I mean no, I mean, the UK has very rigid standards.' '' \6\
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
                             health impacts
    Time and again I have heard fears of chemical exposure categorized 
as effects from the heat. It is very hot in Louisiana at this time of 
year, but health assessments are not based on examinations of the 
patients but instead on opinion. Ms. Casstevens' continues.
    ``The media has misinformed people, the issue is not with the 
chemicals but with the heat, it's hot out there.'' This is what I heard 
consistently at the community meeting in Thibodaux, Louisiana 
yesterday.

    ``The health and safety table had smiling faces . . . and the first 
thing I noticed was every single flyer on their table described the 
symptoms of heat stress, nothing about the dangers of being exposed to 
the oil, dispersant 9527 or COREXIT 9500. Nothing.'' \7\
---------------------------------------------------------------------------
    \7\ Casstevens, Callie.

    According to the U.S. Coast Guard's Jim Rachwal at the same forum, 
``all of the injuries claimed are a result of heat or pre-existing 
condition.''
    The Louisiana Department of Health and Hospitals are monitoring the 
health complaints. Their information, unavailable at the community 
forums, but available on their Web site, reports the following.

    ``There have been 227 reports of health complaints believed to be 
related to exposure to pollutants from the oil spill. One hundred 
ninety-three reports came from among workers and 34 from among the 
general population. Seventeen individuals had short hospitalizations. 
Most frequently reported symptoms include headache, dizziness, nausea, 
vomiting, and upper respiratory irritation. The general population 
complaints were related to odors, and symptoms were considered mostly 
mild.'' \8\
---------------------------------------------------------------------------
    \8\ Louisiana Department of Health and Hospitals, http://
www.dhh.louisiana.gov/offices/publications/pubs-378/
_OilSpillSurveillance2010_06.pdf.

    On Thursday, June 2 my coworkers Anna Hrybyk and Shannon Dosemagan 
spoke to a nurse who was staffing the medical tent within the BP zone 
in Grand Isle, Louisiana. This nurse was part of the official parish 
response that was advertised as the place that workers and others 
should go to if they experience health problems from the spill. The 
nurse was incredibly frustrated. She had arrived on the scene to treat 
medical emergencies, and her equipment included IV's, suture stitching 
materials and more. She reported that she was told she could only offer 
aspirin and band aids. She reported that BP is running its own 
Emergency Medical Service and that the sickest people are being taken 
there and avoiding the parish emergency center.
    Ms. Hrybyk recently returned to the medical tent, and stated that 
contract clean up workers are required to be treated by BP's own 
contracted out EMS area, not the public response team.
    Her account is below:

    ``Two weeks ago (6/24), I returned to the BP worker compound in 
Grand Isle looking to get more information on what types of health 
issues workers were being treated for.
    ``All oil clean-up workers under contract with BP must go to a 
privately contracted CARE EMS. While we were standing in the West 
Jefferson Medical Center (WJMC) tent, a BP clean-up contractor came in 
about a worker who had open sores and blisters on his hands and 
forearms after having come into contact with the water. The doctor that 
saw him wanted this worker to be treated by the West Jeff staff, 
presumably because of their excellent reputation. However, much to the 
nurse's discontent, she was bound by the protocol to refer the worker 
to the BP EMS even though his doctor referred him to the WJMC. 
According to her, contractors who know and trust the work of the WJMC 
are `livid' about this BP imposed protocol.
    ``BP's CARE EMS area is heavily guarded but we managed to speak 
with the EMTs on duty. They said they were creating detailed incident 
reports for every worker they see and those are getting sent to the 
Houma Unified Command Center. I have been chasing the Head Nurse at the 
Houma Command Center for weeks trying to get those reports. I am now 
going to submit a Freedom of Information Act request to the U.S. Coast 
Guard for their reports on worker health incidents.'' \9\
---------------------------------------------------------------------------
    \9\ Hrybyk, Anna, ``Chemical Exposures,'' July 8, 2010, Louisiana 
Bucket Brigade blog, http://labucketbrigade.wordpress.com/.

    A pharmacist in Port Sulphur told me that use of asthma and 
respiratory medications--both over the counter and prescription--are up 
10 percent from this time last year. One clean up worker walked in the 
door and bought all of the medication off the shelf to share with his 
co-workers.
                            bp's monitoring
    BP insists that its air samples have shown no problems, but this is 
at odds with workers' experiences of falling ill after breathing in 
chemicals. It is also at odds with news reports about hospitalized 
workers.\10\
---------------------------------------------------------------------------
    \10\ Associated Press Associated Press, ``Hospital treating 7 oil 
spill cleanup boat crewmen,'' May 27, 2010, http://www.nola.com/news/
gulf-oil-spill/index.ssf/2010/05/hospital_treating_7_oil_spill.html.
---------------------------------------------------------------------------
    One of the most troubling aspects of BP's monitoring is that it has 
contracted with a notorious firm called the Center for Environmental 
and Toxicological Health. This firm is the go-to firm for companies 
responsible for environmental disasters. ``The private contractor hired 
by BP PLC as the primary monitor of offshore workers in the Gulf of 
Mexico is no stranger to environmental calamity. After a million 
gallons of oil spilled on a Louisiana town in 2005, after a flood of 
toxic coal ash smothered central Tennessee in 2008 and after defective 
Chinese drywall began plaguing Florida homeowners, the same firm was on 
the scene--saying everything was fine.'' \11\ More information about 
CTEH is included in the attachments.
---------------------------------------------------------------------------
    \11\ Schor, Elana, ``GULF SPILL: Tests raise questions about 
cleanup workers' chemical exposure,'' Greenwire, June 11, 2010, http://
www.eenews.net/public/Greenwire/2010/06/11/1.
---------------------------------------------------------------------------
    More investigation is needed to determine how much of EPA's 
sampling is reliant on CTEH. They share office space. It is not in the 
public's interest for CTEH to be a partner in protecting the public. 
According to the Coast Guard's Jim Rachwal from the forum in Thibodaux, 
``CTEH does a couple thousand samples compared to the USCG which does a 
few hundred. Unified Command shares a trailer.''
         need for long-term health and environmental monitoring
    According to the EPA, the effects of dispersant use are unknown. 
Given this lack of certainty, robust monitoring of gulf coast 
residents' health and environment should begin now. The Louisiana 
Department of Health and Hospitals has begun monitoring, but their 
effort is small. The healthcare systems of the gulf coast do not have 
the capacity to diagnose and treat people with chemical exposure. The 
region needs to be fortified with experts in toxicology. Where 
monitoring is necessary, local people should be employed to carry it 
out.
                             seafood safety
    Monitoring is also necessary to determine if oil and dispersant is 
in our seafood. There will be intense pressure from every corner--from 
our Governor, local parish presidents and likely our congressional 
delegation--to reopen fishing waters and claim that everything is fine. 
But public health concerns should prevail and a robust, protective and 
transparent monitoring system should be put in place.
                    environmental protection agency
    The EPA is to be commended for their responsiveness and inclusion 
of NGO's like mine. Best practices for disaster response emphasize that 
resilience happens best when locals are supported, and Administrator 
Jackson has done that.\12\ She has also been very forthright that the 
EPA does not know much about dispersants and that they are having to do 
science on the fly. Since EPA is monitoring for dispersants, these 
comments are in regard to that monitoring. Most of these comments are 
in regard to air since that is my area of expertise.
---------------------------------------------------------------------------
    \12\ Mock, Nancy, WTUL interview with Crystal Kile, June 25, 2010, 
http://www.tulane.edu/wc/sophieaudio/
RadioFreeOilzilla25June2010WTUL.mp3.
---------------------------------------------------------------------------
    These recommendations for improvement are made in a spirit of 
gratitude for the EPA's collaborative spirit thus far.
    The EPA has repeatedly stated and put in writing that air sampling 
data for this time of year is consistent with the normal range of air 
quality. The EPA has no data from years' past, however, to back up this 
claim.
    The fixed monitoring sites have not been selected based on the best 
locations for public health but rather for factors of convenience, like 
an available source of power. The agency continues to use limited data 
to extrapolate to a broad region. Although the EPA is doing more 
monitoring now than has ever been done in this part of the country, 
this is a reflection on the sorry state of air monitoring along the 
gulf coast rather than on any particularly comprehensive sampling 
measures. Given the relatively limited scope of the sampling, data 
should not be used for general characterizations. If the EPA does not 
have the data then they should simply state that fact.
    The EPA has a response number on its Web site with the purported 
goal of responding to odor complaints from the public. The public, 
however, does not know about this program. The EPA needs to publicize 
this number.
    The EPA is now saying that air quality levels in some coastal 
regions may be harmful for sensitive groups. This is a welcome 
assessment. For the first 2 months the agency was engaging in 
unfortunate knee jerk assurances of safety that had no basis in data.
    The EPA data for all media--water, air and sediment--is too hard to 
understand. Making this data comprehensible to the average citizen is 
admittedly a tall order, but the staff tasked with this job could do a 
much better job.
    When I approached the EPA table at a community forum in LaRose 
Louisiana, I was greeted by an EPA employee who immediately told me, 
before I could even ask a question, that ``all we are getting is non 
detect.'' An ordinary person would never understand what this meant. I 
knew that he was characterizing EPA's sampling results. I also knew 
that it wasn't true.
    One of the problems with any kind of responsive monitoring--be it 
the response team or EPA's Trace Atmospheric Gas Analyst (TAGA) truck--
is that it is unlikely to capture the complaint that was originally 
filed. Even in the best scenario a response team will like take a 
couple of hours to arrive. EPA needs to embrace a new model of 
participatory research and train local gulf coast residents to use 
sampling equipment. Many of the people impacted by the spill are 
comfortable using equipment, and it makes sense to put them to work as 
samplers. This model would provide much better results than the current 
regimen of response teams.
    Based on 11 years of experience with the Louisiana Department of 
Environmental Quality (LDEQ), we have no confidence that the agency is 
capable of taking any steps to protect people or the environment. This 
agency should be invested with as little responsibility as possible. We 
are pleased that EPA seems to be taking the lead in the response and 
that should continue.
                               bp control
Of Clean Up Crews
    Many of the residents of the coastal communities are afraid to 
speak out on these issues for fear of repercussion, including loss of 
employment from BP.\13\ This fear has been voiced repeatedly to me and 
to my coworkers since April 20. There is word that workers are required 
to sign a gag order, though I have not seen one.
---------------------------------------------------------------------------
    \13\ Cohen, Elizabeth, ``Fisherman's Wife Breaks the Silence,'' 
CNN, June 3, 2010, http://www.cnn.com/2010/HEALTH/06/03/
gulf.fishermans.wife/index.html?hpt=C2.
---------------------------------------------------------------------------
    Some workers have been required to sign an agreement not to talk to 
anyone about the impacts that they have witnessed.\14\ When this issue 
was raised in a town hall meeting with BP, they replied that this is 
not their fault, that the agreement is the subcontractors' policy. BP 
has the power to negotiate whatever it wants in its subcontracts; this 
clause should be removed.
---------------------------------------------------------------------------
    \14\ Grand Isle Louisiana Town Hall Meeting, June 2, 2010.
---------------------------------------------------------------------------
    I spent time with a Vietnamese woman in Plaquemines Parish. She has 
been hired as a translator by BP. She told me that fishermen line up 
twice a week in hopes of receiving one of the 100 food vouchers 
distributed by Catholic Charities. The line begins forming as early as 
3 a.m. I asked if we might talk to people in line one morning and she 
told me that no one would talk for fear of losing their jobs with BP. 
So intense is the pressure that people will not even speak under the 
shroud of anonymity.
Of Health Protections
    Clean-up workers are being told by BP that they will be fired if 
they wear respirators to protect themselves from chemical exposure.\15\ 
We have heard these stories since May 14, 2010 from fishermen in 
Barataria, Lafitte, Grand Isle and Venice. Workers have requested 
respiratory gear because of the exposure happening while they work. 
Because BP is the employer, these fishermen will not speak out publicly 
for fear of losing one of the only opportunities they have at earning 
money.
---------------------------------------------------------------------------
    \15\ Lawrence, Grant, ``Fishermen Hospitalized: BP not Allowing 
Clean Up Workers to Use Respirators,'' Alternet.org, May 27, 2010, 
http://blogs.alternet.org/grantlawrence/2010/05/27/fishermen-
hospitalizedbp-not-allowing-clean-up-workers-to-use-respirators/.
---------------------------------------------------------------------------
    BP has made statements detailing the health protective gear it has 
provided.

    ``We want to ensure workers' health and safety are protected, so we 
give them Tyvek suits, nitrile gloves, safety glasses, hard hats when 
working near overhead hazards, rubber boots, plus hearing protection, 
insect repellant, sunscreen, lip balm, personal floatation devices and 
steel-toe boots,'' Curry said.\16\
---------------------------------------------------------------------------
    \16\ Hammer, David, ``BP clashes with critics on Gulf of Mexico oil 
crisis response,'' Times Picayune, May 31, 2010, http://www.nola.com/
news/gulf-oil-spill/index.ssf/2010/05/post_6.html.

    This statement is at odds with what we are seeing on the ground. 
What's more, this does not mean that all workers are consistently being 
provided with such equipment and does not even mention respirators.
    Of great concern is a recent article in The New York Times stating 
that 2-butoxyethanol has been detected up to 10 parts per million (ppm) 
in 20 percent of oil clean-up workers in the gulf. The NIOSH standard 
for 2-butoxyethanol is 5 ppm. That same article cites ``a June 9 report 
on worker test results, BP confidently asserted that the health hazards 
of exposure to both dispersant chemicals and the components of leaking 
crude `are very low.' '' \17\
---------------------------------------------------------------------------
    \17\ Schor, Elana ``Gulf Spill: New BP data show 20 percent of 
responders exposed to chemical that sickened Valdez workers'' The New 
York Times, July 08, 2010, http://www.nytimes.com/gwire/2010/07/09/
09greenwire-new-bp-data-show-20-of-gulf-spillresponders-e-82494.html.
---------------------------------------------------------------------------
Of Information
    ``To me that's one of the most frightening things--BP's control. 
Their brazen control of the clean up, of the disaster. Putting oil on 
property doesn't give them the right to control the property. How much 
power do these people have?'' (Terrebone Parish on June 7, 2010)

    For the last 2 months, BP has restricted access to shoreline and 
marsh areas where there is oil or other apparent damage. Air traffic 
above the spill is also restricted. Among those prevented from 
accessing the sites are the media and scientists working in the public 
interest. Earlier this month, access became even tougher, with the 
Coast Guard preventing access within 20 meters.
    Private security forces are hired to keep people off of public 
beaches. While the public does need to be protected, this protection 
needs to be within reason. The beach closures on Grand Isle, including 
Elmer's Island, appear not to be about health protection but preventing 
residents, the media and others from documenting the oil spill. 
Security forces deny access even for organizations and institutions 
with trained professionals working on the spill. Going through official 
process to get BP approval takes days and usually does not result in 
access.
    A May 29 piece in The Huffington Post discussed that a CBS news 
story said one of its reporting teams was threatened with arrest by the 
Coast Guard and turned back from an oiled beach at the mouth of the 
Mississippi River. The story said the reporters were told the denial 
was under ``BP's rules.'' \18\
---------------------------------------------------------------------------
    \18\ Brown, Matt, ``Gulf Oil Spill: Media Access Being Slowly 
Strangled Off,'' Huffington Post, May 29, 2010, http://
www.huffingtonpost.com/2010/05/29/gulf-oil-spill-media-
access_n_594592.html.
---------------------------------------------------------------------------
    The long-term impact of this short term control of information is 
that BP is preventing full documentation of the disaster's impacts.
Of Federal Agencies
    OSHA.--Workers are prevented from wearing protective gear and air 
quality information is absent.
    EPA.--BP continued to use COREXIT even after the EPA asked them to 
change to a less toxic alternative.\19\
---------------------------------------------------------------------------
    \19\ Tilove, Jonathan, ``BP is Sticking with its Dispersant 
Choice,'' Times Picayune, May 21, 2010, http://www.nola.com/news/gulf-
oil-spill/index.ssf/2010/05/bp_is_sticking_with_its_disper.html.
---------------------------------------------------------------------------
    NOAA.--BP has consistently underestimated both the amount of oil 
leaking \20\ from the well, the potential impacts of dispersant and the 
area impacted by the spill.
---------------------------------------------------------------------------
    \20\ Gillis, Justin, Calculations of Gulf Spill Underestimated, 
Scientists Say, New York Times, May 13, 2010, http://www.nytimes.com/
2010/05/14/us/14oil.html.
---------------------------------------------------------------------------
    The following reports about dispersant and health have been 
submitted to the Tulane/Louisiana Bucket Brigade Oil Spill Crisis Map--
www.oilspill.labucketbrigade.org. These reports have been filed by 
people along the gulf coast.
7/10/10--Burning Feet After Sand Gets in Flipflop Long Beach, MS
    My feet burned after sand from toxic beach in Long Beach, MS got in 
my shoes (this is the second report of burning after potential contact 
with dispersant).
7/2/10--Health Problems for My Three Year Old Son, Pass Christian, MS, 
        Health Effects, Livelihoods Threatened
    My 3-year-old son was diagnosed with pneumonia on Monday morning. 
He was admitted to the hospital Monday afternoon and finally discharged 
Wednesday afternoon. He was a perfectly healthy and happy 3-year-old 
boy until this incident. I read that children have been susceptible to 
dispersant-related pneumonia. If this is true, I have a feeling that 
this was his problem, as he has had no significant health problems up 
to this point. He was in the hospital for 3 days, with the 4th day at 
home. I was, of course, by his side the entire time. Due to my being 
there with my son, I had to miss nearly a week of work.
6/30/10--Respirators for Workers Port Sulphur, LA
    The marina outside Port Sulphur yielded several insights into the 
BP HAZMAT classes. Two local Tankermen were interviewed regarding their 
experience with the BP classes. They claimed that the issues addressed 
in the class stressed developing differing ``stations'' for cleaning 
yourself, undressing, sterilization etc. Washing hands and taking rests 
whilst working were also said to be stressed.
    Both Tankerman seemed concerned that respiration of toxic chemicals 
were not addressed during the courses. One of the men interviewed 
stated that when the course's director was questioned regarding 
respiration of chemicals the question ``was basically ignored.''
    ``I had to wear respirators to deal with switching piping on the 
tanks, why are the workers in the spill not all wearing respirators? 
''--Oil Tankerman, Port Sulphur.
6/16/10--Where Does the Decon Water Go? Grand Isle, LA
    Several BP security personnel patrolling the beach near zone 11 
stop and remind me that I must not cross the orange barrier. I ask 
where and how will they dispose of the contaminated water left behind 
in the decon wash containers (kiddie pools) after clean up crews wash 
off their boots when they leave the Hot Zone (highest area of 
contamination). No one seems to have the answer to that question 
including the workers themselves.
6/14/10--Foot Burned Grand Isle, LA Health Effects, Grande Isle, LA
    On Grand Isle Breach I was walking and had flip flops on (we were 
about to change into rubber boots) taking pictures and trying to get a 
grasp of which way to go first . . . I stepped in what appeared to be 
sludge, it was green and smelled toxic. The small irritation I had from 
the flip flop tong between my toes started burning, I realized the 
sludge flipped onto my flip flop and my foot felt like it was on fire, 
like someone took a match and was holding it underneath my foot. It had 
actually given me what appears to be a second degree burn. the team 
helped me wash it off and address it asap, just a warning though, stay 
away from this stuff if you have ANY type of small cut or abrasion, it 
will and is harmful.
6/12/10--Oil Spill Clean-up Worker With Open Sores on his Hands and 
        Arms, Grand Isle, LA
    Supervisor for BP subcontractor reported to first aid tent that he 
had a worker referral from a physician to the nurses for open sores on 
his hands and forearms. The sores contained blood and pus. Reported 
that this worker is ``known for safety violations'' like not wearing 
protective gear.

    Senator Mikulski. Well, thank you very much.
    First of all, as a former grassroots organizer and somebody 
who believes in this, I believe in the empowerment of people. I 
believe in giving people news that they can use to be able to 
look out for themselves.
    But that means that they have a government on their side 
and a government that brings out the best in the private 
sector, because often they do have the information and, for 
either civic or liability reasons, should be willing to share.
    So let's go to the news that the people really need to have 
that you've outlined.
    What I would like from you is a realistic assessment of 
what you think they are, because I've been distressed, too.
    You heard me say earlier, I'm not really hot on this 
Unified Command. I think it's been oil spill by committee, and 
nobody seems to have the go power, just veto power.
    And as much as I admire the Coast Guard and their daring-do 
rescue--I mean, we ask them to go into triple storms and pluck 
people out, and we saw what they did in Katrina. We know how we 
rely on them--for search and rescue, environmental enforcement, 
but they're not a scientific agency.
    And I am concerned that while we're worried about the 
deployment of skimmers, which we need to, we haven't deployed 
the other people to make highest and best use of our protective 
assets.
    So here's where I am: I asked Sebelius herself, where is 
HHS?
    So they go down--they stand on the beach, but what happens 
after the cameras leave? And that goes to your question. You 
want us to come not as VIPs. You'd like the cabinet people to 
come down and--not as VIPs. Maybe they will. Maybe they won't. 
They're great people.
    But I want that after the bigwigs leave and the cameras 
leave people have things in their hand that tells them what to 
do or not do and where to go if they can't breathe right, if 
their child keeps coughing.
    I was very distressed in your testimony about this chemical 
that seems to trigger pediatric pneumonia. That was pretty 
scary to me.
    So we want to hear from you where we need to have this 
information. And we intend to go to the executive branch, all 
agencies in the executive branch, to look at, what is the 
news--I'll call it the news you can use, and I think that's 
what you're talking about. So let's even start with the basics.
    But let's go to your other recommendations. Could you 
elaborate on your first policy recommendation?
    Ms. Rolfes. Yes, that regarded giving the EPA and other 
agencies--NOAA and OSHA, whoever it is--more capacity, which 
may be a money issue, but certainly I think is a legal issue.
    And there was a pretty dramatic back and forth in May 
between Administrator Jackson and BP regarding dispersants, and 
one of the issues was around using a less toxic alternative and 
then one was about just using less of the dispersant.
    And you can see the letters. I mean, they're public record. 
They're on Web sites. You can see the letters in which they 
tell the Administrator of the United States no, they will not 
investigate a less toxic alternative, and that's a real 
problem. I mean, it seems as if she does not have the legal 
authority that's needed here.
    Senator Mikulski. Well, that's what we're going to find 
out. You heard what I asked her.
    But, Dr. Cook, and also Ms. Rolfes, but, Dr. Cook, you have 
a whole group of scientists working with you. Do you recommend 
that we stop dispersants? Could you----
    Mr. Cook. At this stage, Madam Chairwoman, we----
    Senator Mikulski. And I'm not saying ban them.
    Mr. Cook. I understand.
    Senator Mikulski. There's a continuum of actions here. One 
is an outright ban. That, I think, has to be well founded on 
solid research. The other is stop. And then the other is what 
Jackson was talking about, well, just use a little bit until we 
find out. What's your view here? Should we stop it?
    Mr. Cook. Madam Chairwoman, we have thought long and hard 
about this. We have scoured the available literature, and we 
are hard pressed to tell you that the right choice at this 
stage is to stop the application of this dispersant in the deep 
water, because we know how toxic the oil can be.
    And so, again, the question becomes, when you put 
yourselves in the jeopardy that we put ourselves in with this 
kind of technology, and you don't have the most rudimentary 
responses available to you, starting with shutting off the 
flow, much less dealing with the oil that escapes--and since we 
started this hearing, depending on what rate you pick--and I'm 
sure BP won't question me on this, at least I hope they won't--
the oil would be 15-feet deep or more in this room right now, 
just from the start of this hearing.
    So if that is the case and we're losing that much oil that 
quickly, we have to be concerned about any opportunity to 
reduce its impact on marine life, and we just don't know if 
dispersants are going to help that situation or hurt it.
    So we are in the same jeopardy----
    Senator Mikulski. So what do you think? So do you think we 
ought to stop or take a pause?
    Mr. Cook. I don't think it makes sense to take a pause as 
long as we know that physically dispersants work and they can 
help break up this material.
    But I think it comes down to guesswork in the absence of 
studies, doesn't it? I mean, Administrator Jackson is a trained 
chemical engineer. There's never been anyone with her 
scientific credentials at the top of EPA before.
    Senator Mikulski. Right. And she's a woman of Louisiana 
herself.
    Mr. Cook. And she cares deeply about that area. She would 
do nothing, I am confident, to cause more harm. But the fact of 
the matter is she just doesn't know. She is flying blind.
    So use a little less. Maybe that's the right call. Stop it 
altogether. Maybe that's the right call, but we just don't 
know. And so we're not in a position to say stop it immediately 
because of those uncertainties.
    We don't want to cause harm that we know the oil will 
cause, given the uncertainties about the dispersants and the 
fact that we did not do our job to begin with to understand the 
impact that that volume might have.
    Senator Mikulski. Well, I think we have to be clear that 
for the last 10 or so years this has been an area that wasn't 
hot and cool, so maybe people weren't studying it.
    The other is that Government resources--EPA has a very 
small research budget. NOAA has a larger one, and so does the 
NSF in terms of that. So let's go to research. Research takes a 
long time, and you're a scientist. You know how scientists are. 
Oh, we need more studies, and you're talking here about 
longitudinal studies.
    I don't want to get into methods and whatever, but really, 
one of my concerns is we're in a Catch-22. We need more 
research to know about safety and efficacy, but it takes time 
to do research, and the impact is on people now----
    Mr. Cook. We're in the emergency room and what we're 
essentially asking right now is are the methods we're using to 
treat the patient--should we study them more or should we treat 
the patient? And it's a no-win, no-good-options set of 
circumstances.
    But what I would say is BP has the money. They've been 
making a lot of money in the gulf for a long time, and, again, 
I would put it to them this way: If you knew that this spill 
and the controversy around it, including the dispersants, might 
spell the end of your company, would you have done the studies 
then? Would you have been better prepared then? Since nothing 
else seemed to dissuade them from telling us that this event 
will never happen. There's no need to prepare, no need to do 
studies, because it just can't happen. Well, now it has.
    Senator Mikulski. Well, my concern--first of all, I believe 
that we must--that we're the research and the funding for 
research, because whatever we do, I'm going to be sure it's 
independent. I'm going to make sure it's valid, trustworthy and 
independent.
    And not only do I want the study to have scientific 
integrity, but I want the American people to believe that it 
has scientific independence and integrity. No gag rules. No 
muzzling. No selectivity of the information. So I believe 
that's got to come from the United States Government.
    I also do have confidence in our universities, and 
particularly many of the universities in the region. So, for 
example, we've got the scientists in the gulf, but they don't 
know the bay the way Virginia and Maryland scientists at the 
University of Maryland--you know--have been working with it.
    So my view would be to look at, of course, national 
repositories of scientific talent and assets, but also to 
enlist the scientific community in the gulf who would have both 
expertise of the region and the terrain of the region and a 
passion for getting it right.
    Do you think that this is the way to go? And also to be 
looking--enlisting public health in a way that also is 
gathering epidemiology.
    Mr. Cook. Well, I would just briefly----
    Senator Mikulski. But do you see it that way?
    Mr. Cook. I do see it that way. I think----
    Senator Mikulski. Because we're going to fund the research.
    Mr. Cook [continuing]. The science ought to be done--I 
think we ought to get BP to pay for some of this, but it ought 
to be done by independent, impartial experts.
    Senator Mikulski. Well, we'll figure out how to involve BP 
to do that.
    Ms. Rolfes. May I make a comment on that?
    Senator Mikulski. Yes. Sure.
    Ms. Rolfes. BP has already granted $500 million saying it's 
for research in the gulf, and there are universities in the 
region, of course, interested in that money. BP has to approve 
your project. So just be aware that that----
    Senator Mikulski. No. See, that's where it's got to----
    Ms. Rolfes. Exactly.
    Senator Mikulski [continuing]. And so on.
    This is why I come back to our Government. But, you know, 
we are the United States of America. There's nobody with our 
size and our scope. Okay? And, you know, we can bill them for 
the research in the same way we're billing them for a skimmer.
    Mr. Cook. Exactly.
    Senator Mikulski. So that's maybe the way to go.
    And I know the President has talked about $2 million. You 
know, these things are going to be a little bit more pricy than 
that.
    So what we would like from the consortium is what direction 
you think the scientific research should be done. What are kind 
of the must-do categories? Because I don't want Congress to be 
prescriptive in terms of scientific research, but I want us to 
be descriptive in terms of the outcomes that we would like to 
have from their research. I don't mean like conclusions, but 
policy, and policy areas for recommendations.
    I'm really worried about this, and I will repeat it, and I 
concur with you. We do not know whether we're going to end up 
with a new gulf war syndrome, whether this is the Agent Orange 
or DDT.
    And, by the way, DDT, Rachael Carson would tell you, if she 
were sitting here--a sister Marylander--it had some good things 
and it had some terrible things. So----
    Mr. Cook. We'll get that to you, yes, Madam Chairwoman.
    Senator Mikulski. Do you have any points that you think we 
need to make?
    Do you have anything else you would like to elaborate on?
    Mr. Cook. Could I just add one point? That I am struck, 
once again--and I assume the American public will be struck by 
this, too. Who are the people in the front lines that we rely 
on to deal with these crises?
    Just like we did in 9/11, we send them in. Really, they're, 
in effect, the heroes going in to try and--whatever they can do 
to save the day, and we treat them as if they're disposable.
    In the case of this situation, as Anne has so well 
described, we are not giving workers basic information. We are 
worried that if they are to be protected from the oil and the 
dispersant they're going to have to wear protective gear. And 
then it turns out that we've discovered that people don't wear 
protective gear when it's really hot.
    So, again, we're sending people into a situation where they 
are destined to be exposed to toxic chemicals. We have to have 
known that going in. All the more reason to make sure that if 
these types of events are going to happen--and I don't think 
anyone can deny, as we've heard for years, that deepwater rigs 
are safe. I don't think anyone's going to make that claim 
anymore, but they made it for years.
    Going forward, we have to know that oil is sometimes 
extracted in warm places, and when that happens, if it spills, 
we have to take extraordinary measures to make sure that the 
people who clean it up are informed and protected, and 
compensated for that high-risk work.
    They're our heroes. We're sending them in to clean up the 
mess that these big companies profited by making. And that, I 
think, is an important lesson to come out of all of this.
    I'm not out in the gulf every day. My colleagues aren't 
always in the gulf every day, although I think the 
environmental community has done a great job making the case 
that we need to solve this problem and soon.
    But the people who live there, who are working day in and 
day out now to try and make the best of this mess, they're not 
being treated right.
    Senator Mikulski. Did you want to comment about--before I 
wrap up--about the EMS that BP runs? Do you feel that we could 
get access to their data or----
    Ms. Rolfes. The information is reportedly going to the 
Unified Command, and we've put in a request for it. We haven't 
received it yet.
    But there's the issue of the data itself. But the 
diagnosis, that's something that nobody will be able to do 
anything about once the diagnoses are made. And I think there's 
got to be some intervention there to get those workers back 
into the mainstream system, because, otherwise, that is data 
that BP will absolutely own, and, again, the data itself might 
be useless, because they're going to say heat exhaustion. 
They're not going to say dispersant or oil.
    Senator Mikulski. Well, and that goes to the epidemiology.
    Ms. Rolfes. Absolutely. You have a lot of people making 
claims based on no science. Just as there's no science around 
dispersant, there's no science around just deciding somebody 
got heat exhaustion.
    Senator Mikulski. This is big, because it will also go to 
personal-injury claims.
    Ms. Rolfes. Absolutely.
    Senator Mikulski. You know, a week from now, a month from 
now, a year from now----
    It's time now to really conclude the hearing, and we thank 
you for your generosity of time.
    I do think about these workers, and I think many of my 
colleagues do, and we also think about past experiences where 
people who did wonderful things ended up with very serious 
consequences and we were told the chemistry was okay or it 
wasn't a problem.
    And I think about a conversation I had Saturday with a gulf 
war vet, a wonderful young man, who still bears the permanent 
impact of that war and is still, if you see him from a 
distance, handsome and fit, and when you talk to him, he still 
can't go to work, but it's because they said, Oh, don't worry. 
It's all okay.
    If my good friend and former colleague, Senator Clinton, 
were here, or Senator Schumer, they would talk about the 
wonderful men and women who worked at the 9/11 cleanup, there 
were New York firefighters and EMS. They came from all over 
America, including my own home State, and I was so proud to 
meet them there, and then just the consequences of this.
    And now we have this oil spill, and it's one more, oh well, 
we don't know and we're going to need more research. And also 
where people are being treated for what they're experiencing on 
the ground in real time, we're not going to have access to that 
data.
    So we're going to do something about it. First thing we're 
going to do is find out what legal authority Lisa Jackson has, 
and while she's talking to her lawyers, we're going to talk to 
our lawyers and work, of course, with the Lautenberg team who 
have been exceptional in this area, and we're going to get the 
legal authorities straightened out.
    You heard what we said in terms of the additional research. 
We're going to look at what you recommend, but we also want the 
executive branch to be more involved here with the dispersant 
issue.
    I want that seafood to be safe, but I want those workers to 
be as safe as the shrimp, and I'm not going for a funny one 
liner.
    So we want to thank you. We see this, Dr. Cook--Mr. Cook--
Dr. Cook----
    Mr. Cook. It's Mr. Cook, but I really appreciate----
    Senator Mikulski. Mr. Cook, we see this as what you said. 
It's unfortunately a great scientific experiment, but we're 
part of it. We want to have a working group on this. And you 
could see, we've got good bipartisan support here, and we look 
forward to more conversations with you.

                         CONCLUSION OF HEARING

    We want to thank you for your own time, what you do on 
behalf of fellow Americans, and we thank you for your advice 
and your counsel and your advocacy.
    This subcommittee is recessed.
    [Whereupon, at 12:15 p.m., Thursday, July 15, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
